<html>
<title> - CLOSE TO HOME: HOW OPIOIDS ARE IMPACTING COMMUNITIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                       CLOSE TO HOME: HOW OPIOIDS
                       ARE IMPACTING COMMUNITIES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                                AND THE

                  SUBCOMMITTEE ON HIGHER EDUCATION AND
                         WORKFORCE DEVELOPMENT

                                 OF THE

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, NOVEMBER 8, 2017

                               __________

                           Serial No. 115-28

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                
                                __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-367 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d2b5a2bd92b1a7a1a6bab7bea2fcb1bdbffc">[email&#160;protected]</a>                
                
                
                
              
                
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Steve Russell, Oklahoma              Mark Takano, California
Elise Stefanik, New York             Alma S. Adams, North Carolina
Rick W. Allen, Georgia               Mark DeSaulnier, California
Jason Lewis, Minnesota               Donald Norcross, New Jersey
Francis Rooney, Florida              Lisa Blunt Rochester, Delaware
Paul Mitchell, Michigan              Raja Krishnamoorthi, Illinois
Tom Garrett, Jr., Virginia           Carol Shea-Porter, New Hampshire
Lloyd K. Smucker, Pennsylvania       Adriano Espaillat, New York
A. Drew Ferguson, IV, Georgia
Ron Estes, Kansas
Karen Handel, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

Duncan Hunter, California            Jared Polis, Colorado
David P. Roe, Tennessee                Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Raul M. Grijalva, Arizona
Luke Messer, Indiana                 Marcia L. Fudge, Ohio
David Brat, Virginia                 Suzanne Bonamici, Oregon
Tom Garrett, Jr., Virginia           Susan A. Davis, California
Karen Handel, Georgia                Frederica S. Wilson, Florida
       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE DEVELOPMENT

                   BRETT GUTHRIE, Kentucky, Chairman

Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Lou Barletta, Pennsylvania             Ranking Member
Luke Messer, Indiana                 Joe Courtney, Connecticut
Bradley Byrne, Alabama               Alma S. Adams, North Carolina
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Elise Stefanik, New York             Raja Krishnamoorthi, Illinois
Rick W. Allen, Georgia               Jared Polis, Colorado
Jason Lewis, Minnesota               Gregorio Kilili Camacho Sablan,
Paul Mitchell, Michigan                Northern Mariana Islands
Tom Garrett, Jr., Virginia           Mark Takano, California
Lloyd K. Smucker, Pennsylvania       Lisa Blunt Rochester, Delaware
Ron Estes, Kansas                    Adriano Espaillat, New York
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on November 8, 2017.................................     1

Statement of Members:
    Davis, Hon. Susan, A., Ranking Member, Subcommittee on Higher 
      Education and Workforce Development........................     8
        Prepared statement of....................................     9
    Guthrie, Hon. Brett, Chairman, Subcommittee on Higher 
      Education and Workforce Development........................     6
        Prepared statement of....................................     7
    Polis, Hon. Jared, Ranking Member, Subcommittee on Early 
      Childhood, Elementary, and Secondary Education.............     3
        Prepared statement of....................................     5
    Rokita, Hon. Todd, Chairman, Subcommittee on Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Cox, Dr. David, Partner, Superintendent, Allegany County.....    41
        Prepared statement of....................................    43
    Miner, Ms. Toni, Family Support Partner......................    18
        Prepared statement of....................................    20
    Robinson, Mr. Tim, Founder and CEO, Addiction Recovery Care..    11
        Prepared statement of....................................    14
    Wen, Dr. Leana, Commissioner, Baltimore City Health 
      Department.................................................    27
        Prepared statement of....................................    29

Additional Submissions:
    Adams, Hon. Alma, a Representative in Congress from the State 
      of North Carolina:
        Article: President Trumps Says He Wants to Stop the 
          Opioid Crisis, His Actions Don't Match.................    77
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut:
        Graph....................................................    80
    Ms. Davis:
        Article: Medicaid: States' Most Powerful Tool to Combat 
          the Opioid Crisis......................................    82
    Mr. Polis:
        Article: Medical Cannabis Laws and Opioid Analgesic 
          Overdose Mortality in the United States, 1999-2010.....    90
        Letter dated May 2, 2017, The American Health Care Act 
          Vote...................................................    97
        Questions submitted for the record by Fudge, Hon Marcia a 
          Representive in Congress from the State of Ohio........   102
        Dr. Wen's responses to questions submitted for the record   104

 
          CLOSE TO HOME: HOW OPIOIDS ARE IMPACTING COMMUNITIES

                              ----------                              


                      Wednesday, November 8, 2017

                        House of Representatives

               Committee on Education and the Workforce,

              Subcommittee on Early Childhood, Elementary,

                        and Secondary Education

                               joint with

       Subcommittee on Higher Education and Workforce Development

                            Washington, D.C.

                              ----------                              

    The subcommittees met, pursuant to call, at 10:30 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee on Early Childhood, Elementary, 
and Secondary Education] presiding.
    Present: Representatives Rokita, Guthrie, Barletta, Messer, 
Byrne, Brat, Grothman, Stefanik, Allen, Lewis, Mitchell, 
Smucker, Handel, Polis, Davis, Courtney, Fudge, Bonamici, 
Adams, DeSaulnier, Blunt Rochester, Krishmamoorthi, and 
Espaillat.
    Also Present: Representatives Foxx, Scott, and Shea-Porter.
    Staff Present: Courtney Butcher, Director of Member 
Services and Coalitions; Michael Comer, Press Secretary; 
Kathlyn Ehl, Professional Staff Member; Rob Green, Director of 
Workforce Policy; Amy Raaf Jones, Director of Education and 
Human Resources Policy; Jonas Linde, Professional Staff Member; 
Nancy Locke, Chief Clerk; Kelley McNabb, Communications 
Director; Jake Middlebrooks, Legislative Assistant; James 
Mullen, Director of Information Technology; Krisann Pearce, 
General Counsel; James Redstone, Professional Staff Member; 
Mandy Schaumburg, Education Deputy Director and Senior Counsel; 
Michael Woeste, Press Secretary; Tylease Alli, Minority Clerk/
Intern and Fellow Coordinator; Jacque Chevalier, Minority 
Director of Education Policy; Mishawn Freeman, Minority Staff 
Assistant; Carolyn Hughes, Minority Director Health Policy/
Senior Labor Policy Advisor; Stephanie Lalle, Minority Digital 
Press Secretary; Richard Miller, Minority Labor Policy 
Director, Udochi Onwubiko, Minority Labor Policy Counsel; and 
Veronique Pluviose, Minority Staff Director.
    Chairman Rokita. A quorum being present the Subcommittee on 
Early Childhood, Elementary, and Secondary Education and the 
Subcommittee on Higher Education and Workforce Development will 
come to order.
    Today we will have opening statements from the chairman and 
the ranking members of our two subcommittees. And, with that, I 
recognize myself for an opening statement.
    Good morning and welcome to today's joint subcommittee 
hearing with our colleagues from the Subcommittee on Higher 
Education and Workforce Development. I would like to thank our 
panel of witnesses and our members today for joining on this 
important discussion on opioid abuse and addiction that is 
taking a toll on the Nation as we see every night on our 
television sets, if not from other places.
    The opioid crisis is having a profound impact on families, 
jobs, communities, and the economy, and that is why we are here 
today. The issue of drug overdoses due to opioids is only 
getting worse as death related opioids have quadrupled since 
1999. And we have some fast facts up on the screen detailing 
all of this. In fact, in 2016 alone there were approximately 
64,000 fatal drug overdoses. This means that the opioid crisis 
is claiming the lives of 175 Americans per day. These figures 
are horrifying and sad, not only for the country's future, but 
for communities who are losing parents, husbands, wives, 
teachers, and, yes, students.
    Additionally, the opioid epidemic knows no age, gender, 
educational, credential, or class distinction. This crisis is 
touching all of us. Some of the most unfortunate stories have 
to do with children whose lives have been forever changed by 
this public health emergency. Between 2000 and 2014 the number 
of babies born drug-dependent increased by 500 percent. In my 
home State of Indiana a recent pilot program from the State 
Department of Health found that about one in five infants 
assessed at hospitals around the State tested positive for 
opioids, 20 percent of our babies in Indiana.
    More and more children are being placed into foster care or 
are cared for by another relative due to parental drug abuse. 
According to a recent analysis nearly a third of the children 
who entered foster care in the U.S. in 2015 alone did so at 
least partially because of parental drug abuse.
    It is one thing to read the statistics and accounts in the 
news about communities in the midst of an opioid crisis, but 
these accounts do not compare to the real voices we need to 
hear from in order to understand this crisis.
    I had the opportunity to host a school safety summit last 
week in my district. One of the two significant topics was the 
opioid crisis. I heard from Dustin Noonkester, one of the 
founders of Brady's Hope. Dustin lost his son to opioid 
overdose. This organization is a resource to members of the 
community on how to spot abuse, how to address opioid misuse, 
and how families can help one another treat opioid addiction. 
Brady was a good student, he was off to a military career and 
he had 2 weeks to go before boot camp when his life was claimed 
by this. And it happened over the course of one summer. Started 
meeting with kids that he hadn't before, and one thing led to 
another and he was 2 weeks short of getting to boot camp where 
his life would have been saved.
    The epidemic can no longer be ignored and it is important 
that we hear from those who are on the ground and facing tragic 
truths of this opioid crisis every day. The witnesses we have 
gathered here today understand the opioid problem better than 
any of us here in Washington perhaps because they see it and 
they fight it in their communities nearly every hour of every 
day. So I am pleased this committee can come together to 
understand this true public health emergency and its impact on 
communities across the United States.
    And with that, it is now my pleasure to yield to the 
ranking member of the Subcommittee on Early Childhood, 
Elementary, and Secondary Education, and my friend, Congressman 
Polis for his opening remarks.
    [The information follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary, and Secondary Education

    Good morning, and welcome to today's joint subcommittee hearing 
with our colleagues from the Subcommittee on Higher Education and 
Workforce Development. I'd like to thank our panel of witnesses and our 
members for joining today's important discussion on opioid abuse and 
addiction that is taking a toll on the nation.
    The opioid crisis is having a profound impact on families, jobs, 
communities, and the economy, and that is why we're here today.
    The issue of drug overdoses due to opioids is only getting worse as 
deaths related to opioids have quadrupled since 1999. In 2016 alone, 
there were approximately 64,000 drug overdoses. This means that the 
opioid crisis is claiming the lives of 175 Americans per day.
    These figures are horrifying and sad not only for the country's 
future, but for communities who are losing parents, husbands, wives, 
teachers, and students.
    Additionally, the opioid epidemic knows no age, gender, educational 
credential, or class distinction. This crisis is touching all 
Americans.
    Some of the most unfortunate stories have to do with the children 
whose lives have been forever changed by this public health emergency.
    Between 2000 and 2014, the number of babies born drug-dependent 
increased by 500 percent. In my home state of Indiana, a recent pilot 
program from the state Department of Health found that about 1 in 5 
infants assessed at hospitals around the state tested positive for 
opiates.
    More and more children are being placed into foster care or are 
cared for by another relative due to parental drug abuse. According to 
a recent analysis, nearly a third of the children who entered foster 
care in the U.S. in 2015 did so at least partially because of parental 
drug abuse.
    It is one thing to read the statistics and accounts in the news 
about communities in the midst of the opioid crisis, but these accounts 
do not compare to the real voices we need to hear from in order to 
understand this crisis.
    I had the opportunity to host a school safety summit last week in 
my district. One of the two big topics was the opioid crisis. I heard 
from Dustin Noonkester, one of the founders of ``Brady's Hope.'' Dustin 
lost his son to opioid overdose. This organization is a resource to 
members of the community on how to spot abuse, how to address opioid 
misuse, and how families can help one another treat opioid addiction.
    These are the stories that give me hope that this crisis can be 
overcome.
    This epidemic can no longer be ignored, and it is important that we 
hear from those who are on the ground and facing the tragic truths of 
the opioid crisis every day.
    The witnesses we have gathered here today understand the opioid 
problem better than any of us here in Washington, because they see it, 
and fight it, in their communities.
    I am pleased this committee can come together to understand this 
true public health emergency and its impact on communities across the 
United States.
                                 ______
                                 
    Mr. Polis. Thank you, Chairman Rokita, for holding this 
very important hearing. As we know, the opioid crisis cuts 
across State lines, across party lines, it affects each of us 
in our congressional districts, and many of us in our 
neighborhoods and families. In my home State of Colorado the 
rate of drug overdose deaths since 2000 has more than doubled. 
The impact of the opioid crisis needs to engender a strong 
bipartisan response from Congress, and I am thankful that we 
are beginning to have an important discussion through our joint 
subcommittee this morning.
    Addressing the opioid crisis should be a top priority for 
the United States Congress, for our States, for our local 
governments. Last year Congress passed, and President Obama 
signed, a law with a new set of policies that helped 
restructure our prevention and treatment efforts to better 
respond to substance abuse problems. Unfortunately, it did not 
provide the funding necessary to effect change and this crisis. 
We need to match our rhetoric with action and with real 
resources. That means understanding the role that many programs 
fill in crafting a holistic approach to the crisis, programs 
within the jurisdiction of this committee and programs within 
the jurisdiction of other committees. For example, early 
learning programs, helping care for children who experienced a 
trauma of having addicted parents.
    Public schools are on the front line in the delivery and 
coordination of services for students impacted by addiction. 
Congress should fully fund programs authorized under ESSA to 
ensure that teachers and school leaders are equipped to be 
ready and willing partners in addressing the opioid addiction 
and opioid use disorder.
    We can't overstate the importance of access to health 
coverage in this discussion. Medicaid and the Affordable Care 
Act have been improved and expanded to provide healthcare 
coverage to many who lacked it. In my home State alone 400,000 
Coloradans have access to health insurance through the Medicaid 
expansion alone.
    Finally, as we address the opioid addiction crisis we have 
to remember that many communities were suffering from substance 
abuse disorders long before this current crisis. While the 
level and number of deaths has increased, addiction has always 
been a problem in our communities, in both rural communities, 
in urban and suburban communities, in every congressional 
district.
    We need to think critically about alternative options to 
addressing this crisis. For some communities, such as veterans, 
as we see in Colorado, cannabis should be considered as a 
replacement therapy for chronic pain management. Research 
suggests that implementing medical cannabis programs can reduce 
pain management medications associated with mortality, like 
opioid prescription drugs. It also can improve pain management 
and significantly reduce healthcare costs. In fact, a recent 
Journal of American Medical Association study analyzed all 50 
States and found that those with medical marijuana laws had 25 
percent fewer fatal opioid overdoses than States that did not 
have those laws between 1999 and 2010.
    At this time I ask unanimous consent to place this study in 
the record.
    Chairman Rokita. Without objection.
    Mr. Polis. Recently I was honored to present a Purple Heart 
to a veteran who lives in my district. This 29-year-old man put 
his life on the line for our country and he told me he uses 
medical marijuana for all of his pain management and sleep 
issues and he has been able to successfully take himself off of 
the prescription opioids that the VA prescribed. His girlfriend 
also bore witness to the fact that he is much better for it. 
And these are the kinds of stories and data that we need to 
look at in addressing the opioid crisis.
    It is encouraging that Congress is taking this time to 
discuss the issue, and it is important that this committee is 
staying involved in the Federal response to the opioid 
epidemic. I know that members on both sides of the aisle will 
have thoughtful questions and ideas both to address the under 
resourcing of programs and to make sure that we can address 
this issue in a comprehensive manner.
    I want to thank our panelists for taking the time to 
testify today. I look forward to hearing from everybody.
    And I yield back the balance of my time.
    [The information follows:]

Prepared Statement of Hon. Jared Polis, Ranking Member, Subcommittee on 
          Early Childhood, Elementary, and Secondary Education

    Thank you, Chairman Rokita, for holding this important hearing 
today.
    As each of us here knows, the opioid crisis is one that cuts across 
state lines and affects each of our congressional districts. In 
Colorado, the rate of drug overdose deaths since 2000 has more than 
doubled. The impact of the opioid crisis isn't a partisan issue, and 
our response shouldn't be either. I'm thankful we're able to discuss 
this important issue at our joint subcommittee hearing this morning.
    Addressing the opioid crisis should be a top priority for Congress. 
Last year, Congress passed and President Obama signed into law a set of 
policies that helped restructure our prevention and treatment efforts 
to better respond to substance use disorder. It did not, however, 
provide the funding necessary to affect the change needed to address 
this crisis.
    To truly respond to this epidemic, we have to walk the walk, and 
without funding, we will not be doing enough for our constituents to 
move the needle.
    We must match our rhetoric with action and real money. That means 
understanding the role that many programs fill in crafting a holistic 
approach to this crisis - programs within the jurisdiction of this 
Committee. For example, early learning programs help care for children 
who experience the trauma of having addicted parents. Public schools 
are on the front line in the delivery and coordination of services for 
students impacted by addiction. Congress must fully fund programs 
authorized under ESSA to ensure that teachers and school leaders are 
equipped to be ready partners in addressing opioid addiction and opioid 
use disorder.
    We also cannot overstate the importance of access to health 
coverage in this discussion. Medicaid and the Affordable Care Act have 
dramatically improved and expanded access to health coverage, a vital 
part of responding to opioid use disorder and ensuring that Americans 
can get both needed preventive care and treatment. In my state alone, 
over 400,000 Coloradans have access to health insurance now through the 
Medicaid expansion.
    But for the last ten months and counting, we have wasted precious 
time trying to repeal the Affordable Care Act and Medicaid expansion. 
This is especially cruel because 1.6 million people with substance 
abuse disorders now have access to treatment precisely because 31 
states expanded Medicaid as part of the ACA.
    Even last week, House Republicans advanced a bill that would cut 
billions from the Affordable Care Act's Public Health and Prevention 
Fund, which helps states prevent and respond to the opioid epidemic.
    Finally, as we address the opioid addiction, we have to remember 
that many communities were suffering from substance use disorders long 
before Congress woke up to this issue. Addiction affects both rural and 
urban communities and every Congressional district. Efforts to address 
addiction through treatment, instead of incarceration and instead of 
punishment, should apply to all communities as well.
    We also need to think critically about alternative options to 
addressing this crisis. For some communities, such as veterans, 
cannabis should be considered as a replacement therapy for chronic pain 
treatment. Early research suggests implementing medical cannabis 
programs could reduce pain management medications associated mortality, 
improve pain management, and significantly reduce health care costs. In 
fact, a recent Journal of American Medical Association study analyzed 
all 50 states and found that those with medical marijuana laws had 25% 
fewer fatal opioid overdoses than states that had no such laws between 
1999 and 2010.
    At this time, I ask unanimous consent to place this study into the 
record.
    Recently, I was honored to present a Purple Heart to a veteran who 
lives in Boulder, Colorado. This 29 year old young man put his life on 
the line for our country. He told me that he uses medical marijuana for 
all his pain and sleep issues, and has been able to take himself off 
all opioids the VA had prescribed. His girlfriend testified to the fact 
that he's so much better for it. These are the type of stories we need 
to listen to.
    It's encouraging that Congress is taking time to discuss this issue 
and it is important that this Committee stay very involved in the 
federal response to the opioid epidemic. I am hopeful that we can 
address it through increased funding for effective, under-resourced 
programs and locally-driven state and federal initiatives that are 
built on evidence-based practices, not stigma or misperceptions about 
proven treatment strategies.
    I thank the panelists for taking the time to testify today. I look 
forward to hearing from you.
    Thank you, and I yield back the balance of my time.
                                 ______
                                 
    Chairman Rokita. I thank the gentleman. I will now yield to 
the chairman of the Subcommittee on Higher Education and the 
Workforce for his opening remarks.
    Chairman Guthrie. Thank you, Chairman Rokita. I want to 
echo the chairman's appreciation for the witnesses here today.
    The opioid crisis is having a profound impact on my 
constituents as well. And I am sure the stories we hear from 
the witnesses today resonate with many of the stories I have 
heard in Kentucky. The opioid crisis is a public health 
emergency and Congress must continue working to face the 
epidemic that has had an impact on all aspects of our society. 
Unfortunately, a problem as widespread as the opioid epidemic, 
which has already had an impact of 11.5 million Americans has 
also taken a devastating toll on local economies and the 
national economy as a whole, and we are only beginning to see 
more clearly. As the opioid health emergency continues to 
worsen, the economy will continue to suffer. Data from CDC 
analyzing opioid overdose deaths by age groups in 1999 and 2015 
show that people most likely to die of an opioid overdose are 
between the ages of 25 and 39 years old. These are people who 
have entire lives, careers, and untold contributions to make to 
their communities and our country ahead of them. Numbers are 
important, but people with their own stories are at the heart 
of this crisis.
    To Americans who live in some of the areas hardest hit by 
the opioid crisis, including my home State of Kentucky, they 
are seeing their coworkers, bosses, friends, and family members 
suffer from this horrible affliction. The administration and 
Congress are coming together to identify community-based 
solutions to combat this crisis. But the day-to-day hard work 
fighting this outbreak is already being done on the ground by 
the people that face this issue every day. The witnesses we 
have gathered here today have seen the impact the opioid crisis 
is having on their communities every day and it is important we 
hear the stories of how it specifically impacted them as 
individuals, as well as their friends, families, and coworkers.
    When it comes to finding solutions for the workforce 
development needs and creating more good paying jobs, we look 
to State and local entities who are leading by example and the 
opioid crisis is no different. Our witnesses before us have 
learned a lot in their communities about how to spot opioid 
abuse and implement successful forms of treatment. It is 
important we hear about these experiences in order to inform 
the congressional response to this crisis.
    At this committee we talk a lot about how we are addressing 
the shortage of skilled workers across the country and how we 
want to empower people to build the lives they want for 
themselves. For many workers ensnared in this epidemic, it is 
critical that they receive the treatment they need to help them 
return to the workforce and to find a good job once they are 
drug free. We also have to acknowledge that the opioid crisis 
resulting in too many lives ending far too soon and we have to 
look at ways to stop it.
    I would like to welcome Tim Robinson here today from my 
home State of Kentucky. I know that Tim and I were discussing 
earlier Louisa, where he is from, is probably closer to this 
capital building than it is to my hometown of Bowling Green, 
but it just shows how broad and wide and diverse Kentucky is 
and the problem is pervasive through all economic groups, all 
people, and it is something that we are struggling with. I know 
that the dean of the Kentucky delegation, Hal Rogers, has been 
a strong supporter of what you do in Louisa and Martin County 
and all through Appalachia, and also across the Commonwealth.
    So I certainly appreciate you being here today and your 
testimony in a few minutes. I appreciate the witnesses for 
appearing and I look forward to hearing your testimony.
    And I yield back.
    [The information follows:]

  Prepared Statement of Hon. Brett Guthrie, Chairman, Subcommittee on 
               Higher Education and Workforce Development

    Thank you Subcommittee Chairman Rokita, and I want to echo the 
Chairman's appreciation for the witnesses joining us at today's 
hearing. The opioid crisis is having a profound impact on my 
constituents as well, and I'm sure the stories we will hear from the 
witnesses today will resonate with many of the stories I have heard in 
Kentucky.
    The opioid crisis is a public health emergency and Congress must 
continue working to face the epidemic that has had an impact on all 
aspects of our society.
    Unfortunately, a problem as widespread as the opioid epidemic, 
which has already had an impact on over 11.5 million Americans, also 
has taken a devastating toll on local economies and the national 
economy as a whole, as we're only beginning to see more clearly.
    As the opioid public health emergency continues to worsen, the 
economy will continue to suffer.
    Data from the CDC analyzing opioid overdose deaths by age groups in 
1999 and 2015 showed that the people most likely to die of an opioid 
overdose are between the ages of 25 and 39 years old.
    These are people who had entire lives, careers, and untold 
contributions to make to their communities and our country ahead of 
them.
    Numbers are important, but people with their own stories are at the 
heart of this crisis.
    To Americans who live in some of the areas hardest hit by the 
opioid crisis, including my home state of Kentucky, they are seeing 
their coworkers, bosses, friends, and family members suffer from this 
horrible affliction.
    The administration and Congress are coming together to identify 
community-based solutions to combat this crisis, but the day-to-day 
hard work fighting this outbreak is already being done on the ground by 
the people that face this issue every day.
    The witnesses we have gathered here today have seen the impact the 
opioid crisis is having on their communities every day, and it's 
important we hear their stories of how it has specifically impacted 
them as individuals, as well as their friends, families, and coworkers.
    When it comes to finding solutions for workforce development needs, 
and creating more good-paying jobs, we look to state and local entities 
who are leading by example, and the opioid crisis is no different.
    Our witnesses before us have learned a lot in their communities 
about how to spot opioid abuse and implement successful forms of 
treatment. It is important we hear about these experiences in order to 
inform the Congressional response to the crisis.
    At this Committee, we talk a lot about how we are addressing the 
shortage of skilled workers across the country, and how we want to 
empower people to build the lives they want for themselves. For many 
workers ensnared in this epidemic, it is critical that they receive the 
treatment they need to help them return to the workforce, and find a 
good job once they are drug-free. We also have to acknowledge that the 
opioid crisis is resulting in too many lives ending far too soon, and 
we have to look at ways to stop it.
    I'd like to welcome Tim Robinson from my home state of Kentucky who 
is testifying here today. Tim is the founder and CEO of Addiction 
Recovery Care in Louisa, Kentucky, which is a network of 13 addiction 
treatment centers. Thank you for the work you are doing to serve your 
community and the Commonwealth. I look forward to hearing your 
testimony today.
    I appreciate the witnesses for appearing before this committee, and 
look forward to hearing how they have responded in their own 
communities to combat this crisis.
                                 ______
                                 
    Chairman Rokita. Thank you, Chairman Guthrie, and I yield 
to the ranking member of the Subcommittee on Higher Education & 
the Workforce, Congresswoman Davis, for her opening remarks.
    Ms. Davis. Thank you. Thank you, Mr. Chair. As my 
colleagues have said, and I want to point how much in sync I 
think that we are on many of these issues, the opioid crisis 
has greatly impacted our communities. In 2015, more than 33,000 
Americans died of an opioid overdose and more than 2 million 
individuals had an opioid use disorder.
    In California, more people die from drug overdose each year 
than from auto accidents. And that is why it is so important to 
continue to invest in the Federal programs that promote 
addiction recovery and treatment. Across the country and in 
California Medicaid has been vital to addressing the opioid 
epidemic. Adults with Medicaid coverage are about three times 
more likely to have received treatment as inpatients and almost 
twice as likely to have received outpatient treatment than 
privately insured adults. As Ranking Member Polis has noted, in 
our efforts to combat this epidemic it is vital that we invest 
in the systems, systems and the programs that support healthy 
families in communities, and this means a strong workforce. And 
I am pleased that my colleague has also echoed that interest.
    As we have seen with past drug epidemics that have rocked 
our communities the opioid epidemic has a strong link to jobs. 
According to recent research an estimated 25 percent of the 
drop in women's workforce participation between '99 and 2015 
can be attributed to the increase in opioid prescriptions, and 
for men that number is about 20 percent. And we know that when 
adults, particularly women, are not working it has significant 
impacts on the economic security of their families and 
communities.
    For example, job loss for a parent can mean lower wages and 
unemployment for their children later in life. It is 
particularly important to note the relationship between opioid 
abuse and unemployment. This means that individuals may fall 
out of the job force due to their dependence on opioids or it 
may be that they become addicted after job loss. We must help 
people remain employed and breakdown the barriers for 
individuals struggling with opioid abuse problems as they seek 
to reenter the workforce. And this means rethinking employer 
drug testing policies and using a more thoughtful approach for 
those in the criminal justice system. We must also leverage our 
workforce development systems to ensure that our workers, 
especially those in communities impacted by trade and 
technology, have access to the skills development that they 
need. Integrating job training into treatment efforts is also 
key. Linking these services can be crucial for helping people 
reenter the workforce and improve the probability of long-term 
recovery efforts.
    Now, we know that the Trump administration has declared a 
nationwide public health emergency to address the opioid 
crisis. And as part of this declaration the administration has 
directed the Department of Labor to use dislocated worker 
grants to, ``Help workers who have been displaced from the 
workforce because of the opioid crisis subject to available 
funding.'' Unfortunately, we will not be hearing from anyone 
from the administration today to get a better understanding of 
their plans. And that perspective would have been very helpful 
I believe for understanding why they would encourage the use of 
these grants but also, at the same time, call for a 40 percent 
cut to their funding.
    As I am sure many of my colleagues today will underscore, 
substance abuse and its impacts on communities is nothing new. 
And if there is anything that we have learned from past 
failures in addressing this problem it is that resources do 
matter. In addition to investing in treatment and recovery 
programs at the back end, we must also address the poverty, the 
violence, poor healthcare, and inadequate education that can be 
contributing factors to unhealthy communities.
    I look forward to hearing about what investments are needed 
to address a crisis of this magnitude without robbing other 
vital programs, such as family support services and job 
training that support families and communities.
    I want to thank the witnesses for being here today. And I 
certainly want to congratulate Dr. Leana Wen on her newest 
addition to her family. I look forward to your testimony and 
hearing more about how we can address and help communities 
impacted by the opioid abuse exist its crisis.
    Thank you very much for being here.
    [The information follows:]

Prepared Statement of Hon. Susan A. Davis, Ranking Member, Subcommittee 
             on Higher Education and Workforce Development

    As my colleagues have said, the opioid crisis has greatly impacted 
our communities. In 2015, more than 33,000 Americans died of an opioid 
overdose, and more than 2 million individuals had an opioid use 
disorder. In California, more people die from drug overdose each year 
than from auto-accidents.
    That's why it's so important to continue to invest in the federal 
programs that promote addiction recovery and treatment.
    Across the country and in California, Medicaid has been vital to 
addressing the opioid epidemic. Adults with Medicaid coverage are about 
three times more likely to have received treatment as inpatients, and 
almost twice as likely to have received outpatient treatment, than 
privately insured adults.
    As Ranking Member Polis noted, in our efforts to combat this 
epidemic, it's vital that we invest in the systems and programs that 
support healthy families and communities. This means a strong 
workforce. As we've seen with past drug epidemics that have rocked our 
communities, the opioid epidemic has a strong link to jobs. According 
to recent research, an estimated 25 percent of the drop in women's 
workforce participation between 1999 and 2015 can be attributed to the 
increase in opioid prescriptions. For men, that number is about 20 
percent.
    And we know that when adults, particularly women, aren't working, 
it has significant impacts on the economic security of families and 
communities beyond the immediate loss of income. For example, job loss 
for a parent can translate into lower wages and difficulty remaining in 
the labor market for their children later in life.
    It's particularly important to note the relationship between opioid 
abuse and unemployment. This means that individuals may fall out of or 
have difficulty staying in the job force due to their dependence on 
opioids or may become addicted after job loss.
    We must help individuals remain employed and break down barriers to 
individuals with substance use disorders re-entering the workforce. 
This means rethinking employer drug testing policies and using a more 
thoughtful approach to employment for those with involvement in the 
criminal justice system. We must also leverage our workforce 
development system to ensure our nation's workers, especially those in 
communities or industries impacted by trade and technology, have access 
to the jobs and skills development they need.
    Integrating job training into recovery and treatment efforts is 
also key. Linking these services can be crucial for helping people re-
enter the workforce and improve the probability of recovery efforts 
long term.
    So I look forward to hearing about how our current system can be 
improved, including ideas on providing key services in the same 
location, or best practices for partnerships between the workforce 
development and health systems.
    Now, we know that the Trump Administration has declared a 
Nationwide Public Health Emergency to address the opioids crisis. As 
part of this declaration, the administration has directed the 
Department
    of Labor to use Dislocated Worker Grants ``to help workers who have 
been displaced from the workforce because of the opioid crisis, subject 
to available funding.''
    Unfortunately, we will not be hearing from anyone from the 
administration today to get a better understanding of their plans. That 
perspective would have been key in understanding why they would 
encourage the use of these grants while calling for a 40 percent cut to 
this funding.
    As I'm sure many of my colleagues today will underscore, substance 
abuse and its impacts on communities is nothing new. And if there's 
anything we've learned from our nation's past failures in addressing 
substance abuse issues and supporting impacted communities, it is that 
resources matter.
    So I look forward to hearing about what investments are needed to 
address a crisis of this magnitude without robbing other vital 
programs, such as family support services and job training, that 
support healthy families and communities,
    I would like to thank the witnesses for being here today. I also 
want to congratulate Dr. Leana Wen on the newest addition to her 
family.
    I look forward to your testimony and hearing more about the how we 
can help communities impacted by the opioid abuse crisis.
    Thank you.
                                 ______
                                 
    Chairman Rokita. And the gentlelady yields back. Pursuant 
to committee rule 7C all members of the subcommittees will be 
permitted to submit written statements to be included in the 
permanent hearing record. And without objection the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
reference during the hearing to be submitted for the official 
record.
    We will now turn to the introduction of our distinguished 
panel of witnesses, and I yield to Chairman Guthrie to 
introduce our first witness.
    Chairman Guthrie. First I would like to introduce Mr. Tim 
Robinson as the founder and CEO of Addiction Recovery Care, and 
it has 13 organizations that are networked through eastern and 
central Kentucky, and I talked about him in my previous 
remarks. So welcome, and I look forward to your testimony.
    I yield back to the chairman.
    Chairman Rokita. Thank the gentleman. I yield to Ranking 
Member Polis for the introduction of the second witness.
    Mr. Polis. Thank you. I am honored to introduce Toni Miner. 
Miss Miner is a fellow Coloradan from Jefferson County, 
Colorado, which I have the honor of representing much of. She 
is currently working as a family support partner with the 
Jefferson County Child and Youth Leadership Commission. Prior 
to this position Toni Miner served as a family advocate with 
the Child and Youth Leadership Commission. She also worked as a 
parent partner for 5 years. In addition to mentoring families 
she also provides training to caseworkers on the ground. Court-
appointed special advocate volunteers, she helps train as well. 
Miss Miner has been active in the Child Welfare System team 
decision-making meetings and serves on the Domestic Violence 
and Child Protection Services Coordinating Council. Welcome to 
our committee.
    Chairman Rokita. Thank you. I thank the gentleman and I 
will resume introducing our witnesses. Dr. Leana Wen is the 
commissioner of health for the city of Baltimore, Maryland. And 
Dr. David Cox is the superintendent of schools in Allegany 
County, Maryland. Welcome to all the witnesses.
    [Witnesses sworn]
    Chairman Rokita. And let the record reflect that all 
witnesses answered in the affirmative.
    Before I recognize each of you to provide your testimony 
let me briefly explain our lighting system, and it is a 
reminder for us up here as much as it is for you. You will each 
have 5 minutes to present your testimony. And when you begin 
the light in front of you will be turned green, when 1 minute 
is left it will be yellow, and when the time is expired the 
light will turn red. At that point I will ask you to wrap up 
your remarks. After everyone has testified members up here will 
each have 5 minutes to ask questions of each of you.
    And so with that, let me recognize Mr. Robinson for 5 
minutes.
    Thank you, sir.

TESTIMONY OF TIM ROBINSON, FOUNDER AND CEO, ADDICTION RECOVERY 
                              CARE

    Mr. Robinson. Good morning. My name is Tim Robinson. I'm 
the founder and CEO of Addiction Recovery Care. As already 
mentioned, there were more deaths due to overdoses than car 
accidents last year, making addiction a public health crisis. 
The addiction epidemic is not just costing us thousands of 
lives, it is also threatening our economic security as 
employers struggle to find and retain employees who can pass 
the drug screen. In September, our Kentucky Chamber of Commerce 
CEO wrote an op-editorial that called addiction the number one 
economic concern in our State.
    Everyone is looking for a silver bullet to the addiction 
crisis and there is no single intervention that alone is a 
silver bullet. Addiction recovery requires a whole person 
approach which starts with identifying those in addiction, 
intervening with treatment, investing in their economic future 
through education and workforce development, and inspiring them 
to join the effort to do for others what was done for me, help 
another person discover their destiny and work out their 
recovery.
    I am thankful for the opportunity to speak to you because 
recovery is personal to me. I started drinking in my first year 
of law school at the University of Kentucky to cope with my mom 
passing away from terminal lung cancer during finals. For the 
next 8 years I almost drank myself to death. Ten years ago, 
while I was a prosecuting attorney in Lawrence County, 
Kentucky, a court bailiff who was a recovering alcoholic and a 
pastor led me to a spiritual awakening at my desk. He became my 
sponsor, but he also became my pastor. And he carried me for a 
while and he walked with me and poured his recovery and his 
faith into me. Addiction recovery is personal to me because I 
am a survivor.
    Two years later, I resigned as prosecutor, gave my law 
practice to my law partner, and in 2010, opened Karen's Place, 
a recovery center for women in eastern Kentucky. Since opening 
our first center we've realized that addiction is a disease 
that devastates all aspects of a person's life and that a 
holistic approach is crucial for long-term recovery. Addiction 
impacts someone's mind, body, spirit, and their purpose. And 
we've been determined to treat addiction medically, clinically, 
spiritually, and vocationally. And though our centers are led 
by an addictionologist and are nationally accredited, 
Alcoholics Anonymous has taught us that a spiritual awakening 
is the foundation of lasting recovery. In that tradition we've 
developed a spirituality program that inspires hope and offers 
those coming out of an addiction an opportunity to understand 
that God is the source to find hope, forgiveness, and 
redemption. Much like hospice care centers and Catholic 
healthcare systems we employ chaplains and pastoral counselors 
who work alongside our clinical staff. And though we consider 
the faith-based aspect of our centers to be the heart of our 
success, our spirituality program does not replace medical and 
evidence-based clinical practices. It's in addition to them and 
makes our care more comprehensive.
    Treating the whole person has led to great success. Our 
clients stay in treatment for 60 to 70 days, compared to a 
national average of 25 to 30 days. This objective measure shows 
our residential centers to be twice as effective as the 
national average.
    Readmission is another objective measure. Those in 
addiction who relapse most often return to the same center 40 
percent of the time. Less than 10 percent of our clients 
readmit.
    As we have built our treatment network we have had a great 
need for addiction treatment workers and we have created an 
internship program and issued a challenge. Clients who intern 
with us until their 1-year clean mark would be guaranteed a 
job. Today 70 of Addiction Recovery Care's 200 employees are 
graduates of our program. We formalized their internship 
program, becoming a State-certified peer support specialist 
training program. A peer support specialist is a recovering 
addict who has at least 1 year of sobriety. After a 40-hour 
class they become a Medicaid billable behavioral health 
practitioner and can provide those in addiction with peer 
support.
    SOAR, an economic initiative in Kentucky's Fifth 
Congressional District, connected us with the Workforce Board 
Eastern Kentucky Concentrated Employment Program and their 
executive director, Jeff Whitehead. With the Workforce Board 
providing funding we partnered with Sullivan University to 
transform our internship program into a workforce development 
opportunity. Our program graduates become State-certified and 
earn a college certificate. There's also soft skills 
development and professionalism in workplace ethics. They 
receive other skills such as CPR, first aid, and using a 
medical record, electronic medical record.
    In 2016, we started our first class and 16 peer support 
specialists graduated in May of 2017. Out of the 16 graduates, 
14 of them were at least 8 months clean and sober today, 
working full-time, paying taxes, and transitioning off of 
public assistance. These 14 people now have great purpose and 
meaningful careers. We now have more than 50 others in the 
academy today.
    Prior to the academy 40 percent of our clients moved to our 
transitional program. After starting the academy, now 70 
percent of our clients now choose to continue treatment, which 
means treatment----
    [The statement of Mr. Robinson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Rokita. Thank you, Mr. Robinson. I appreciate that 
very much. Miss Miner, you are recognized for 5 minutes.

        TESTIMONY OF TONI MINER, FAMILY SUPPORT PARTNER

    Ms. Miner. Good morning. I wish to thank the Committee on 
Education and Workforce for providing me with this opportunity 
to share my perspectives with you today.
    My name is Toni Miner and I am a birth mother of three 
children, Mercedes, Jonell, and Spencer, and the legal guardian 
for my two grandchildren, Angel and Tavin. And we live in 
Jefferson County, Colorado.
    My story is that of a mother who was heavily ruled by her 
addiction to methamphetamine. My meth use became daily in 1996 
and continued until 2002. Unfortunately, my two beautiful 
daughters had to live through my active meth addiction. I 
didn't think my meth use really had an effect on my girls as I 
was providing a roof over their head, food on the table, and 
clothes on their backs. But what my daughters wanted and needed 
more than anything in this world was a clean and protective 
parent.
    Now, during this time of my meth use I received many 
criminal charges that were due to my use. I had burned all my 
bridges and had no support and I really didn't see any way out 
of my addiction. Then I found out that I was pregnant. I had no 
idea what I was going to do or how to get clean, but knew that 
I had to. I had hit my rock bottom. Because I was finally ready 
to get clean I was able to take the first steps and stop my 
meth use with the support of my amazing caseworker and 
probation officer, who did not judge me, but encouraged me. My 
daughters returned to my care the day that I was released with 
the understanding that I would comply with the probation 
requirements and complete intensive outpatient treatment.
    Today, almost 16 years later, I am still clean and actively 
involved in a recovery program. I have rebuilt relationships 
with family, made many new friends, and have many supports in 
my life. Unfortunately, my poor choices did take a toll on my 
two daughters who eventually became addicted to drugs. Today as 
a kinship care provider, I can make sure that my grandchildren 
are safe from any future harm.
    Besides working to ensure that my own family is strong and 
safe, I also work to help families who are impacted via child 
welfare and struggling with addiction. Working as a family 
support partner in Jefferson County, Colorado, and also working 
in our Problem-Solving Court, which is our family drug court in 
Jefferson County, I am able to educate and empower struggling 
families with the skills and knowledge to navigate multiple 
systems and advocate for their own supports and connections 
within the community. I also work with families through 
facilitating a circle of parents and recovery group, which are 
specialized parent support groups designed to build protective 
factors in families, addressing substance abuse and the impact 
of trauma.
    Through my personal experience and my work with families I 
am able to provide you with recommendations that I believe will 
help strengthen families, especially during the opioid crisis.
    One, collaboration across agencies is a must to ensure that 
children and families are getting the right service they need 
efficiently. Families interact with multiple systems with their 
own requirements, processes, and it is essential that these 
systems work together to ensure families get the help they 
need. Law enforcement, child welfare, schools, mental health, 
housing, courts, hospitals, employers, substance abuse 
programs, and methadone clinics should all be part of the 
process to help strengthen families struggling with addiction.
    Two, focus on the whole family. Addiction is a family 
disease. And if the whole family is not treated and provided 
the right supports history will continue to repeat itself, as 
it did within my own family. Families at risk respond best to 
supportive and strengths-based approaches. Both my child 
welfare caseworker and probation officer believed that I could 
change and become the strong, resilient, and healthy parent 
that I am today.
    Three, educate our communities and families regarding 
substance abuse. Public service announcements must talk about 
link between substance abuse and mental health and include 
available resources for treatment. Children must be educated, 
especially prevention education of the children of adult 
addicts.
    Four, partner with parents to work with other families 
before, during, or after involvement with the child welfare and 
court systems. We need to partner with parents like me who have 
learned from their own experiences and can help other families 
navigate complex systems and access services. Many States and 
local jurisdictions are implementing parent partner programs 
and finding this can be a very useful strategy to effectively 
engage parents in their child welfare cases and treatment. 
These voices are also important as they educate policymakers, 
administrators, frontline workers, and others interacting with 
families.
    If we implement these recommendations and invest in 
families, the sky is the limit in what we can achieve together.
    Thank you for your time.
    [The statement of Ms. Miner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Rokita. Thank you, Ms. Miner. Dr. Wen, you are 
recognized for 5 minutes.

  TESTIMONY OF LEANA WEN, COMMISSIONER, BALTIMORE CITY HEALTH 
                           DEPARTMENT

    Dr. Wen. Chairmen Rokita and Guthrie, Ranking Members Polis 
and Davis, thank you for calling this hearing. I am here as an 
emergency physician and the Health Commissioner of Baltimore 
where overdose claims the lives of two residents a day and 
where addiction affects every aspect, from the workforce to our 
youngest children.
    Baltimore has a three pillar approach. First, we focus on 
saving lives by making the opioid antidote, naloxone, or 
Narcan, available to everyone. Not only have we equipped 
paramedics and the police, I issued a blanket prescription to 
all 620,000 of our residents. Since 2015, every day individuals 
have saved the lives of 1,500 people. But we have a problem. 
Our city is out of funds to purchase naloxone, forcing us to 
ration and make decisions every day about who can receive the 
antidote. At a time of a public health crisis it is 
unconscionable that we are being limited in our ability to save 
lives.
    Our second pillar is to increase on-demand addiction 
treatment. The science is clear: addiction is a disease, 
treatment exists, and recovery is possible. Nationwide only 11 
percent of patients with addiction get treatment. Imagine if 
only 1 in 10 people with cancer can get chemotherapy. Yet, my 
patients come to the ER asking for help and I tell them they 
must wait weeks or months. I have had patients overdose and die 
while they are waiting because our system failed them.
    In Baltimore, we started a 24/7 phone hotline that includes 
immediate access to a social worker or addiction specialist. We 
receive 1,000 calls a week. We are starting a 24/7 ER for 
addiction and mental health.
    We believe that treating addiction as a crime is 
unscientific, inhumane, and ineffective. That's why we have 
programs like LEAD, Law Enforcement Assisted Diversion, where 
individuals caught with small amounts of drugs will be offered 
treatment instead of incarceration.
    Law enforcement to stop the trafficking of drugs is 
important as is more judicious prescribing by doctors. However, 
reducing the supply of drugs will not work unless there is 
equal attention to curbing demand through providing treatment. 
That means the Federal Government should do everything possible 
to expand insurance coverage. One in three patients with 
addiction depend on Medicaid. If Medicaid were gutted and they 
were to lose coverage many more would overdose and die. Other 
patients on private insurance could find themselves without 
access to treatment if addiction is no longer required to be 
part of their health plan.
    Essential health benefits are called essential for a 
reason, and all insurance plans should cover preventive care 
and evidence-based addiction services, including the gold 
standard, which is medication-assisted treatment. Block grants 
should not replace insurance coverage because no disease can be 
treated through grants alone.
    We on the front lines know what works. We have done a lot 
with very little, but this is a national emergency. We 
desperately need new resources, not repurposed funding that 
will divert from other critical priorities. These funds should 
be given directly to communities of greatest need. Cities and 
counties have been fighting the epidemic for years and we 
should not have to jump through additional hoops, like 
competing for grants and having funding pass from the States to 
cities. That will cost time and more lives.
    Our third approach is to reduce stigma and prevent 
addiction. We have trained all of our nurses in our 180 public 
schools to save lives with naloxone and we now have addiction 
and mental health services in 120 of our schools. Opioid 
addiction affects those even younger. More than half of 
children who die in Baltimore have a parent or a caregiver with 
addiction and mental health concerns. Home visiting for 
pregnant women helps to identify families in need of treatment 
and support. This is a key component of our citywide strategy, 
B'more for Healthy Babies, which has successfully reduced 
infant mortality by nearly 40 percent in 7 years. The opioid 
crisis requires proven public health approaches spanning the 
entire life course.
    In closing, we know what works. We need support from the 
Federal Government with three actions. First, protecting and 
expanding insurance coverage to get to on-demand treatment for 
the disease of addiction. Second, allocating additional funding 
to areas hardest hit by the opioid epidemic directly to local 
jurisdictions. And third, supporting early interventions for 
women, children, and families. By the time this hearing is over 
at least 10 more people will have died from overdose. I urge 
Congress to commit the additional resources needed to save 
lives and reclaim our communities.
    I thank you for calling this hearing.
    [The statement of Dr. Wen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Rokita. Thank you, Doctor. Dr. Cox, you are 
recognized for 5 minutes.

    TESTIMONY OF DAVID COX, SUPERINTENDENT, ALLEGANY COUNTY

    Dr. Cox. Good morning, Chairmen Rokita and Guthrie, and 
Ranking Members Polis and Davis. Thank you for the invitation 
to be here today to share the very deep impact of a real 
struggle affecting our district, students, and our community. 
As stated, I am the superintendent of schools in Allegany 
County, which is located in western Maryland, where it's been 
my honor to serve as its superintendent since 2009.
    Just a few quick facts about Allegany County. The median 
income is just over $40,000. The population there is about 
72,000. Our current student enrollment is 8,700. Our free and 
reduced meal population in the school system is 55 percent. 
Countywide, our special education population is 16 percent. And 
according to our sheriff this year to date there have been 27 
overdose deaths in our county. Last year there were 59.
    Today I want to share the impact of opioid abuse that 
affects my students each day and the dramatic change that I've 
witnessed in just the past 5 years, and with each successive 
year getting progressively worse.
    One of the first was a decline in our attendance and 
parental involvement in the child's schools. We work very hard 
as a priority of our local board to provide every child in our 
county with a high-quality preschool experience in our district 
and to identify the learning needs of children as early as 
possible. In doing so, we've experienced a sharp increase in 
the number of children who require special services due to the 
opioid issues.
    Eighteen percent of all newborns in Allegany County are 
born drug affected. And this statistic does not include those 
children who may have prolonged prenatal exposure to alcohol. 
Last year we experienced multiple occasions where parents 
overdosed and died in their homes while their young children 
were present. On two different occasions during the preschool 
home visits our staff encountered young children who answered 
the door, and each of those times when asked where their mother 
is the child said she's asleep. And when further investigated 
one of the mothers was deceased and the other was brought back 
through the use of Narcan.
    In one particularly sad and impactful occasion last school 
year we had a kindergarten student who came to school on a 
Monday morning after staying with her father over the weekend. 
When she got to school she was sick and she had a fever. The 
school nurse tried to call the mother since the custody 
schedule indicated that the mother was the Monday caregiver. 
When the mother did not answer the phone, the school's 
secondary emergency contact was her grandfather who was 
contacted and he picked her up for medical attention. No one 
could have imagined that this child's mother and the mother's 
boyfriend had overdosed in the mother's home, at which time the 
boyfriend's also 5-year-old son was in the home and not in 
school. When the little boy ran out of food in his home he went 
to neighbors' houses and knocked on doors for food, which led 
to the discovery then that the little girl's mother and the 
boyfriend were dead from an overdose of fentanyl. It was 
estimated by our authorities that the mother and boyfriend had 
been dead for 2 days.
    My elementary principals have shared with me this year that 
they're experiencing more and more incidents of children who 
have severe behavioral issues when they enter school. Some of 
our preschool age and kindergarten students require full-time 
adult support just to manage their behavioral issues as they 
work with individual behavioral support plans and often there 
is limited parental support.
    The good news in all of this is that for many of our 
children who have been so impacted their public school is the 
place that they are the most loved, the best cared for, and 
where they receive the best nutrition, they're the warmest, and 
where they're shown the most kindness. And for this I am 
grateful to our caring teachers and schools and staff members, 
where they can grow and learn.
    Allegany County Public Schools has revised its health 
curriculum to include specific information for students 
regarding substance abuse at all grade levels. We have 
particularly focused on the high school level on the prevention 
of opioids where we have enlisted the help of two recovering 
opioid addicts who give presentations to students in high 
school health classes. All schools are now stocked with 
naloxone and staff members know how to administer the opioid 
antidote to persons who are believed to have overdosed.
    While I do appreciate that President Trump has recently 
recognized opioids as a national crisis, it is my hope and plea 
that our Federal Government will allow flexibility in use of 
Federal funds to allow school districts to utilize resources to 
help with our efforts to combat this crisis and to tend to the 
many unmet needs of our children. There is a good opportunity 
that Title IV funds in the new ESSA regulations could provide 
some of those flexibilities.
    I have great difficulty in finding the words to describe 
the magnitude of the unmet mental health issues and the health 
issues of my students and families. Many are self-medicating 
their depression and anxiety and many suffer from generational 
addiction. Others have become addicted to prescription pain 
medicine and migrated to opioid addictions. Others, our 
children, are left with deep emotional scars when they lose the 
parents due to overdoses and there aren't enough resources to 
provide all the needs for counseling, therapy, and treatment. 
Keeping options open for children's health insurance programs 
is a critical need.
    I want to express my sincere appreciation and opportunity 
to be here today. And if there is anything that I can do or 
AASA, we would certainly be glad to have you contact us.
    [The statement of Dr. Cox follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Rokita. Thank you, Dr. Cox. I appreciate all the 
witnesses' testimony.
    I would like to recognize the chairwoman of the full 
committee, Dr. Foxx, for 5 minutes.
    Chairwoman FOXX. Thank you, Mr. Chairman, and thank you for 
convening this hearing. It is a very, very painful topic to be 
talking about, but it is one that I know we need to discuss.
    Mr. Robinson, in your testimony you talked about workforce 
preparedness and helping to educate people. How does preparing 
and educating individuals to reenter the workforce increase 
their motivation for treatment?
    Mr. Robinson. Vocational education is a part of a continuum 
of care for addiction treatment. It drives greater levels of 
success for really three reasons. One, when someone enters 
treatment and knows there is a second chance career path it 
inspires hope and increases treatment motivation. Number two, 
the twelfth of AA informs us that sharing our recovery is one 
of the foundations of long-term sobriety. So this concept 
suggests that finding purpose in helping others strengthens 
your own recovery. And then, finally, and I think most 
importantly, experiencing the dignity of work gives recovering 
addicts who have reentered the workforce a positive self-image, 
confidence, and helps them to establish career goals and a plan 
for their future.
    A great example of this is Vanessa Keeton, who was an IV 
heroin needle user who entered one of our residential treatment 
centers and completed our internship program. She later became 
a treatment center director while earning a college degree and 
purchasing her first home. And recently she resigned as our HR 
director and now started a business that is supporting her 
family.
    Chairwoman Foxx. Thank you very much. And thank you, 
particularly, for mentioning the dignity of work. I don't think 
we do that often enough in our conversations.
    Ms. Miner, you discuss how families need to be part of 
their own solution. Can you elaborate on what this means? And 
my assumption is it is different for different families, but 
you might want to give examples of that.
    Ms. Miner. Absolutely. Families are different, they are 
unique in their own ways. Really, in my position in Colorado, I 
sit down with the families and discuss with them what it looked 
like for them when things were going well for them, before 
their addiction had taken its toll, what their children looked 
like, what kind of supports they had in their family. Because 
all too often we find that when someone is in active addiction 
that they have really severed their ties with all of their good 
supports in their life. And they really believe that this is 
severed for life. I share my story with them and tell them 
about how bad I had hurt my own mother through my addiction and 
she is now my best friend again and my biggest support. And 
really we have got to get these families to believe that they 
have the power within themselves to do it.
    Chairwoman Foxx. Thank you very much. Dr. Cox, I represent 
Alleghany County in North Carolina but we spell it just 
slightly differently, we put an ``H'' in it there. And our 
county is not as large as yours and I don't think it has quite 
the same problems, but I love representing Alleghany County in 
North Carolina.
    You discussed the need for flexibility for the use of 
Federal funds to allow schools districts to utilize available 
resources to help meet the needs of the students. How would 
additional ESSA Title IV fund flexibility help you as you 
respond to this problem?
    Dr. Cox. Well, let me give you a very specific example. And 
I go back to a meeting I was in yesterday with my elementary 
principals. It was our regularly scheduled time and we talked 
about some of these issues and the presentation of kids with 
lots of needs. In our district we have one behavioral 
specialist that serves the needs for all of my 13 elementary 
schools. While I am grateful that we have the Title IV funds, 
you basically have to write your plan to fulfill three 
different areas. And in our county we get $70,000. And it would 
be helpful if I could pool all of that money to be able to hire 
another behavior specialist to help with my elementary 
principals and the counselors and the nurses in the school to 
design plans to deal with the behavioral issues. I mean, that 
is one example.
    And I think, you know, in all of our public schools in 
Maryland, across the country, having greater flexibility within 
the Federal entitlement programs to meet the specific needs in 
each of our jurisdictions would be very helpful to all of us.
    Chairwoman Foxx. Thank you. And thanks to the panelists, 
again, and thank you, Mr. Chairman, for indulging me. I yield 
back.
    Chairman Rokita. I thank the chairlady. I recognize Ranking 
Member Scott for 5 minutes.
    Mr. Scott. Thank you. Thank you, Mr. Chairman. Mr. 
Chairman, it seems to be a consensus that we should treat the 
opioid addiction through a public health strategy rather than a 
criminal justice strategy, which means primary prevention 
before people get in trouble and then responding afterwards.
    Dr. Wen, you mentioned in your closing statement a need to 
support early intervention for women, infants, and children. 
What does that mean and what can be achieved?
    Dr. Wen. Thank you for that question. We need to have early 
intervention and detection. That would include things like home 
visiting services, which have been found to have profound long-
term effects on improving children's health and also the health 
and wellbeing of their families, too. We know that there is a 
cycle that exists, this cycle of poverty, trauma, addiction, 
that addiction often begets addiction. And we need to do 
everything we can to break that cycle, to have early 
intervention where possible, to have prevention services, but 
also critically, when people are seeking treatment we need to 
be there for them. We should not have to tell them to wait 
weeks or months, but we should make every interaction the 
opportunity for intervention.
    Mr. Scott. Well, if you are going to have a public health 
response as a cost after they get addicted, to paying for the 
services, can you repeat what you said about the effect of cuts 
in Medicaid and removal of behavioral health coverage as an 
essential benefit in health policies?
    Dr. Wen. Absolutely. In Maryland alone there are 250,000 
people who gained insurance because of expanded Medicaid. All 
these individuals could stand to be without access to treatment 
if Medicaid were cut. Essential health benefits, too. One out 
of every three individuals who now are newly insured through 
ACA plans might not have gotten coverage before because 
essential health benefits did not include addiction services. 
For all these individuals there is no margin of error. So an 
individual who is in treatment now, if they don't have 
treatment tomorrow their only option may be to overdose and 
die. And at a time of a public health epidemic the last thing 
that we can afford to do is to deprive people of the coverage 
they have instead of providing access to treatment for the more 
than 1 in 10 who cannot access it now.
    Mr. Scott. You made a comment about dealing with the 
supply. Can you say why investments in cutting supply are 
inherently unsuccessful?
    Dr. Wen. Well, currently substance abuse already costs 
society $600 billion annually in medical costs and 
incarceration costs. So we need to invest much earlier. And 
cutting supply alone is not going to work unless we also 
address demand, because currently we have millions of people 
who have the disease of addiction. If we are not able to get 
them treatment, that demand is going to continue to fuel supply 
and that is why a public health approach combined with a law 
enforcement approach are what we need. That is the humane thing 
to do, the ethical thing to do, and it saves society money.
    Mr. Scott. Thank you. Dr. Cox, you indicated that 
superintendents need flexibility with the funding. Isn't it 
true that superintendents have also been asking for significant 
increases in funding, particularly Title II-A funding, and 
other funding that can help address this? Not just flexibility, 
but more resources?
    Dr. Cox. We have a lot of needs and certainly additional 
funding would be helpful. One of the greatest needs is that for 
treatment, that we have children whose mental health needs are 
not being attended to because there aren't enough resources to 
do that.
    Mr. Scott. And so you need more resources, not just 
flexibility?
    Dr. Cox. Yes.
    Mr. Scott. Thank you. And, Mr. Chairman, I yield back.
    Chairman Rokita. I thank the ranking member. I recognize 
myself for 5 minutes. I thank the witnesses again.
    Mr. Robinson, you mentioned Alcoholics Anonymous, and 
pardon my ignorance, does it receive Federal funding?
    Mr. Robinson. No, it does not.
    Chairman Rokita. So that allows you to explore the 
spiritual element of the recovery process?
    Mr. Robinson. Yes, absolutely. And, again, you know, in our 
treatment centers we still have an addictionologist leading our 
medical programs. We are nationally accredited by CARF, so we 
are recognized as a center for clinical excellence.
    But we have added two things to our programs that maybe not 
all programs have, and one is a spirituality program, which is 
very, very important, especially when you start looking at 
pastoral care and chaplains. And that is very consistent with 
other faith-based health systems that we have across the 
country.
    And then, finally, as I said in my comments, we have added 
vocational workforce development as a key part. And so you 
really have to treat the whole person and spirituality is a 
piece of that.
    Chairman Rokita. And funding source aside, and regardless 
of it, you recommend spirituality and vocational for every 
program?
    Mr. Robinson. Absolutely. I think we should be investing in 
programs that are holistic, that are treating the whole person. 
Addiction devastates every aspect of someone's life.
    Chairman Rokita. Thank you, Mr. Robinson. And then you 
mentioned Medicaid-eligible healthcare providers. Can you 
unpack that a little bit?
    Mr. Robinson. Yes. I mentioned the peer support specialists 
in our State is a Medicaid billable professional, which is 
incredible public policy because it creates employment for 
people recovering from addiction. And it puts them to work in a 
field that is the best thing for them to do, which is to share 
their recovery with other people. And so in our State, for some 
billing codes, a peer support specialist, who is someone who 
has been clean and sober for a year, that has either got a high 
school diploma or GED, that goes through a 40-hour course, they 
become a behavioral health practitioner. And organizations like 
ours hire those individuals to lead group, to do individuals, 
to go to needle exchanges, to go to ERs----
    Chairman Rokita. And what is the cost to get them trained--
or educated, excuse me, so that they are Medicaid billing 
eligible? Roughly.
    Mr. Robinson. So it is a 40-hour cost and our academy has 
added lots of other skills. Our Workforce Development Board 
provides us approximately about $10,000 for each one that we 
train. But we are training super peer support specialists that 
are certified in CPR, first aid.
    And one of the other things about peer support specialists 
is it prepares them--when they start getting this medical 
training they can go into other careers other than peer 
support, enter the nursing field or other healthcare 
professions, like medical assistants.
    Chairman Rokita. Thank you, Mr. Robinson. Let me skip over 
to Dr Cox here. You mentioned, I believe, if not in your oral 
testimony, your written testimony, community task forces?
    Dr. Cox. Yes.
    Chairman Rokita. Can you unpack that a little bit?
    Dr. Cox. Sure. We have several----
    Chairman Rokita. How do you organize them? Who is involved? 
What is the cost associated with it? What is your funding 
source if there is a cost to the county?
    Dr. Cox. We have several actually. The Western Maryland 
Health System sponsors one and they are called actually The 
Summit. And they are the recipient of some State grant funding.
    Chairman Rokita. Summit?
    Dr. Cox. The Summit, right.
    Chairman Rokita. Okay.
    Dr. Cox. I am a member of the Greater Cumberland Committee 
Education Workforce. They also had an EVANA forum. And then we 
have staff members who participate in various committees with 
the health department. We have a lot of efforts underway. Our 
sheriff, as a matter of fact, this evening will kick off 
another series of town hall meetings all over the county. So we 
have done a really good effort of educating the population 
about what addiction is.
    Chairman Rokita. What is the effect so far? Can you tell?
    Dr. Cox. Well, I think we are a lot better educated as a 
community about the aspects. I mean, for example, just 
educating people who have no experience with addiction, that 
people use to feel normal. That is one of the hardest things I 
think for people to understand is that a person doesn't use 
necessarily to get high, but just to feel normal so that they 
can carry on and function. So that is one of the things that we 
have----
    Chairman Rokita. Thank you. Thank you, Dr Cox. Coming back 
to Ms. Miner now. You indicated in your testimony--and thank 
you for sharing your tragic story as well. I appreciate the 
courage that must take. You mentioned that you thought you 
weren't affecting your kids, perhaps they didn't even know, and 
then obviously you say you now have children that are or were 
drug addicts. So they did see your behavior? What do you think 
the cause is? Is it just more than observation? Or what is your 
instinct as a mother there?
    Ms. Miner. They did see. They saw that I was not present. 
They saw that when they needed me to wake up in the morning to 
take them to school that I could not do it. They saw that when 
they were clinging on my leg wanting mommy time that I could 
not be present because----
    Chairman Rokita. Why does that make them become a drug 
addict in your mind?
    Ms. Miner. You know, I really believe--and after talking to 
both of my daughters, that because they witnessed so much 
tragedy in their life and because there was so much trauma that 
was never dealt with them. When I first got clean everyone 
swooped around me because I was pregnant with my son, but 
nobody helped my daughters who had suffered significant trauma. 
And trauma is a leading cause to substance abuse.
    Chairman Rokita. Thank you. At the risk of breaking my own 
rules I need to stop. I apologize. Thank you very much for your 
responses.
    I now recognize the ranking member of the K-12 
Subcommittee, Mr. Polis, for 5 minutes.
    Mr. Polis. Mr. Robinson, can you confirm if your centers 
accept Medicaid and receive Medicaid reimbursement for 
services?
    Mr. Robinson. We do.
    Mr. Polis. Okay. I just wanted to be clear to point that 
out as a Federal funding stream.
    Ms. Miner, you know, I think the power of your personal 
narrative is very strong. Do you have any suggestions about 
what we can do either officially as a committee or unofficially 
as individuals to encourage more people like yourself to be 
open and share their own stories and narratives and help 
educate others?
    Ms. Miner. I really believe that people like myself can 
help to build the power of people in recovery up to want to 
come and talk. It is a very frightening thing to go out and 
share your story because you never know the reaction that you 
are going to get from people. We are our own worst critics and 
we tend to think that everybody that we go and talk to is just 
going to look down on us. It is really about educating us and 
really helping us to get our voices out there and for you to 
really want to listen, and for us to know that you want to hear 
what we have to say.
    Mr. Polis. And, you know, I have also appreciated the 
movement that many families who have lost children or family 
members to the opioid epidemic have been more forthcoming in 
their obituaries to mention the true cause rather than sweep it 
under the rug. The more visibility and awareness I think the 
more empowered we are to counter this deadly epidemic.
    Dr. Cox, I want to thank you for being here today and 
sharing some data about the opioid crisis. In your testimony 
you talked about the funding struggles that your district is 
facing. In Colorado, when I meet with superintendents and 
school board members, often funding is one of the first issues 
they bring up. Still, school districts are being asked to do 
more with less. And we have never met through this body our 
full commitment to special education funding.
    Most recently there is significant scale-backs in funding 
for ESSA. For instance, eliminating Title II has been proposed 
and cutbacks in Title IV Part A. Can you share the importance 
of fully funding Federal education programs, specifically Title 
IV, and how this could benefit Allegany County Public Schools 
in your efforts to support students and families impacted by 
the opioid epidemic?
    Dr. Cox. Sure. You are correct. I mean, we have so many 
needs and this opioid crisis has only contributed to that. And 
we are funded by a combination--and every State is a little bit 
different, but most of our funds come from the State of 
Maryland. Second is going to be our local county government, 
and then the third pool is the Federal funds. So we use a 
combination of all those funding sources to meet the needs. 
And, as you mentioned, with IDEA not being fully funded it 
really imposes some hardships. And this issue impacts the IDEA 
needs that children have. So it is only going to create more 
need for children. So, you know, whether it is additional 
funding for IDEA or Title IV flexibilities or additional Title 
IV funds, we just need more resources to deal with the issues.
    Mr. Polis. And, Dr. Wen, I want to thank you for being here 
this morning. I am fortunate to represent a district with 
several research universities, University of Colorado at 
Boulder and Colorado State University, both of which are 
leading research universities doing great work to help better 
understand the opioid epidemic. In a recent study from CU in 
partnership with the VA in Colorado they found that patients 
almost universally cited emotional support from family members 
and healthcare providers as essential to recovery.
    Can you speak to the emotional support for family members 
and healthcare providers, and specifically what Baltimore is 
doing to help provide emotional support services for patients?
    Dr. Wen. It is critical to remember that when people are 
recovering from the disease of addiction they need not only the 
medication assistive treatment, which is also the gold 
standard, they also need psychosocial counseling and wraparound 
service, social services. And also that people who are addicted 
to opioids are not only treating physical pain, they are 
potentially treating some other type of pain as well that might 
include emotional pain and trauma.
    And so in Baltimore, we provide services for healthcare 
workers. We provide services also to assist with our most 
vulnerable, including our children in our schools.
    Mr. Polis. And are those models--do you think they can be 
expanded or scaled, included in rural areas?
    Dr. Wen. Absolutely. We have many evidence-based pilots and 
evidence-based programs in Baltimore. We know what works. We 
just need the resources to scale them up in our jurisdiction 
and across the country.
    Mr. Polis. And I will finally go back to Ms. Miner. Can you 
share a little bit about your personal experience as an 
advocate working across different systems and different 
jurisdictions that are all trying to work on this issue and how 
you have been able to try to bring people together through your 
own personal narrative and advocacy?
    Ms. Miner. Absolutely. We are still very siloed, I am 
finding out, across the country, but I am finding more and 
more, at least in Colorado, that people are wanting to work 
together. They are wanting to talk so that we can help 
eliminate the trauma to the family from the family having to 
tell their story over and over again because every time they 
have to repeat it is more traumatizing to them and to their 
children. And with me working so closely with the executives 
that we have in Jefferson County, it makes it that much easier 
for me to help them partner with each other and with the 
families. And they really want to listen to what the families 
have to say.
    Mr. Polis. Thank you. And I yield back.
    Chairman Rokita. The gentleman's time has expired; the 
gentleman yields back. Chairman from Kentucky is recognized for 
5 minutes.
    Chairman Guthrie. Thank you very much. It is great to be 
here. And I just want to say that this is something that is not 
going to be solved solely in Washington. Certainly you guys are 
on the front line at the local level. I just want to point out 
for the witness testimony earlier, joining us was Kim Ozer from 
northern Kentucky, which is not just the north part of our 
State, northern Kentucky is how we define our Cincinnati 
suburbs. So if you live in northern Kentucky, you are closer to 
a Reds game than if you live in north Cincinnati.
    And though hearing opioids has been statewide, we call the 
I-74 corridor in Appalachia, where you are, has been really the 
brunt of it and all the work moving forward. And there are so 
many issues and there are so many committees here looking at 
this crisis together. But on the Higher Ed Committee that I 
chair, we are really looking at how the opioid crisis is 
affecting the workforce.
    So I did my 21 town halls in August. Everywhere I went most 
were talking about healthcare, but there was not one that 
people were not talking about the heroin problem and opioid. 
They say heroin back home, but we are talking opioids in 
general. And so it is everybody who is focused on it want to 
move forward, but every employer that I would talk to who were 
looking at--I think every employer I talked to in Kentucky--you 
will probably find some rural areas, but probably in your area 
that is not--are looking for people to hire and the biggest 
problem they are seeing is passing the drug test, a lot of 
people who show up to work. So there are a lot of issues that 
we just can't look at the criminal justice problem, we have got 
to look at it holistically. I don't want to dismiss that part 
of it. I have changed my attitude on that, too, is that we have 
got to look at people are in trouble because they are addicts, 
not the other way around.
    So the big thing is, as you said, I think you hit it, the 
dignity to get them to work. And I know your program does that. 
And so what are you hearing from local businesses? And I know 
that you tailor some of your programs from what local 
businesses have told you they need to get certificate programs. 
Could you address that? Mr. Robinson? I am sorry, I am talking 
to you.
    Mr. Robinson. Our first training was to provide peer 
support specialists for the addiction treatment field. And 
those folks are going to work not only for us, but for other 
providers, community mental health centers, hospitals, health 
departments.
    One of the things that has recently happened to us is we 
had an executive with a major industrial maintenance company 
approach me. I was actually just eating in a restaurant in our 
town and he said we are needing to hire people. We can't get 
enough folks to pass the drug screen, and especially we need 
welders. So we are right now in the process of adding a welding 
program to what we are already doing and that is going to allow 
us to create a flow not only of an opportunity to allow someone 
that is recovering from addiction to maybe start a job at 
$40,000 or $50,000 a year, but it is going to provide a flow of 
employees who are in some ways kind of drug-proof because they 
have been through treatment, they have got the support.
    And, again, that dignity of work, the confidence that 
comes. One of the most compelling stories I heard was one of 
our graduates came by my office, it was such a big deal, to 
tell me that he had just been to the social services office and 
told the worker there to take his kids of Medicaid because he 
had private health insurance. And that worker said it is the 
first time they had ever seen that. But I could see in his eyes 
just tears welling up when he was able to come and share that 
with me and came to my office to tell me that.
    Chairman Guthrie. That is great. And I know Sullivan 
University out of Louisville is partnering with you so people 
can also earn credentials, academic credentials, with your 
training program. How does that work?
    Mr. Robinson. Sullivan has been a great partner. And they 
are just one of our most outstanding private universities in 
the State, including having a pharmacy school. And so they just 
came along and said, look, we have got a responsibility as an 
education provider to be involved in this issue in our State. 
And they came to us and said how can we be involved? And so 
they stepped forward, and at their own cost are awarding 
college credit for our peer support academy. Those folks are 
not having to pay any tuition dollars. They are awarding 
equivalency credit, which is fantastic.
    And now we have got other educational groups, like our 
community college system, who is coming to us and saying we 
want to do the same thing Sullivan is doing. And, again, this 
idea of putting vocational workforce skill-building as a part 
of the treatment continuum, we have never seen anything 
increase the outcomes of our treatment programs better than 
this.
    And, like I said, the first graduating class of our peer 
support specialist academy we graduated 16; 14 of them today 
are full-time employed, they are sober, and they are 18 months 
at least clean and sober, so that is 85 percent. That is an 
incredible return. And I think we can do that in all kinds of 
different professions.
    Chairman Guthrie. Well, thank you. I appreciate that very 
much. And I don't have enough time to ask another question, but 
I was going to ask Ms. Miner just about working with families. 
But I just want to say when you guys share your stories that 
has got to be extremely difficult to do and put your family out 
here as you have already done earlier today. But it means a 
lot. I think it adds to what we are trying to do and it 
certainly encourages other people and I appreciate you doing 
that, all of you who shared your personal stories and the work 
you do.
    And my time has expired. I yield back.
    Chairman Rokita. The gentleman yields back. Ranking Member 
Davis recognized for 5 minutes.
    Ms. Davis. Thank you so much, Mr. Chairman. And for the 
record, I wanted to put in this State Health Reform Assistance 
Network article, ``Medicaid States: The Most Powerful Tool to 
Combat the Opioid Crisis.'' If I can put that for the record.
    Chairman Rokita. Without objection.
    Ms. Davis. Thank you very much. You know, I don't think any 
of us could sit here with your very compelling testimony and 
not be moved, not be concerned, and on some levels a little 
outraged as well that we are not finding our way to provide the 
resources that are needed to spot--you know, with all the 
compelling good work that is being done in our local 
communities. Because I think the local communities are the 
foundation of how we respond. But we can't do that if we don't 
have the resources. And so it is very important. We are doing 
that in the context of contemplating trillions of dollars' 
worth of debt that we are taking on right now, knowing that as 
the years go by into 2025, 2026, the families who could be hurt 
the most are those today that are really the most vulnerable 
when it comes to the use of Medicaid and health and support 
that is out there.
    So, you know, I can't help but say that because I think 
that we have to put this in some context. And it is wonderful 
to have the sympathy, the empathy, the drive to change things, 
but it is not going to happen if we don't recognize that we are 
making choices every day here in the Congress. And the choices 
that we are making today, unfortunately, I don't think are in 
line with what we see as an emergency in our country.
    And thank you very much for your being here because you 
represent really the issue that we are facing today.
    It was interesting to me, Mr. Robinson, as you were 
speaking I could not help, but think of some of the issues that 
we look at when it comes to the transition of our military into 
civilian workforces. And some of the issues and the need that 
we have had to have companies acknowledge and know more about 
what they are bringing to the job, all the wonderful benefits 
they bring in terms of knowing how to conduct themselves at 
work, but also some of the trauma, in fact, that has been 
experienced. I wonder whether you see that there is a link, 
some relevance to that, and whether or not we could be looking 
at some of those models as well? Does that align for you?
    Mr. Robinson. Yes. As a grandson of a World War II veteran 
this is something that is near and dear to my heart. I still 
remember my grandpa wearing his DAV hat. And so he taught us to 
take care of our military, whatever we can do.
    So we have had several veterans come to us for treatment 
because there still is a lack of access for those that are 
coming back.
    And one of the big success stories, one of the favorite 
stories I love to tell, is Brandon Leslie, who was an 
Afghanistan and Iraq veteran that came to us. He was an IV 
needle user suffering from PTSD, went through our program, did 
our internship program, became a residential staff, then a 
center director, and now he is the assistant director over nine 
residential centers, and he has only been clean and sober for 3 
years. And so one of the things that I noticed were his 
leadership skills that were just inherent in who he is that he 
learned in the military.
    And so we need more of our veterans that are struggling 
active duty to get into recovery because he can talk to them in 
a different way than anybody else can.
    Ms. Davis. Mm-hmm. And I think that goes for Ms. Miner as 
well. I mean, as someone who has been clean, as you noted, for 
many years, you have that special gift to be able to 
communicate that as well.
    Dr. Wen, so within these discussions I think it is clear 
that there needs to be a Federal response with the help of our 
local communities. Can you say why is that important? Why can't 
all of this just happen if communities did the right thing?
    Dr. Wen. We are already doing what we can with extremely 
limited resources, but I will give you an example. Because we 
are out of money for Narcan, if we were to get money to 
purchase 10,000 units of Narcan today I can distribute all 
10,000 units by the weekend. Think about how many more 
thousands of lives we would be able to save every day in our 
local communities if we had the resources and the will to do 
so.
    The opioid epidemic is a solvable problem. This is what 
frustrates me every day. We know what works, we know the 
science is there, we just have to do the right things, 
including protecting existing insurance coverage, but also 
expanding coverage and increasing the resources to allow us to 
do what we already know based on evidence works.
    Ms. Davis. Thank you. Thank you, Mr. Chairman.
    Chairman Rokita. Thank the gentlelady. Congressman Allen, 
you are recognized for 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman. Appreciate you all 
coming and sharing with us about this difficult, really 
difficult problem that we have.
    In this country it really dates back to the 10th century if 
you read about the problems in China. I do not know how many 
male citizens of the United States are on drugs, but in China 
in the late 1800s over 25 percent of the male citizens of that 
country were opioid users. And, of course, they went to great 
lengths to deal with it there.
    You know, when I am out and talking with educators, it is 
difficult because a lot of our educators tell me their biggest 
challenge, not only in elementary schools but also in colleges, 
is emotional health of the student body. And, you know, I look 
at my days in college and I thought that was a great time to 
be--you know, I had a great time in college, it was a wonderful 
experience. So I don't know what has happened since I was in 
college. I know that I was fortunate in that drugs really did 
not come on the scene until I was out of college, at least at 
my particular college. But I saw it as soon as I got home after 
college with a lot of my friends who I went to high school with 
that became drug users.
    I will tell you this, we have got 6-1/2 million jobs open 
in this country right now. I did a 19 county tour in August and 
I met with our chambers and our county commissioners and our 
mayors, and economic activity is at its highest level. I met 
with a company that is going to add 100 jobs in one county. 
They had 400 applicants and only 40 could pass the drug test. 
Folks, we have got a serious, serious problem.
    I talked to law enforcement. In most of my counties my 
sheriffs say that if we didn't have a drug problem they 
wouldn't have anybody in prison. And maybe there would be 
something else going on, I don't know. And a lot of it is 
people have entirely too much idle time.
    And so, you know, with that, Mr. Robinson, obviously 
treatment is critical, but, you know, somehow--how do we stop 
the supply? Because, like I said, if you read the history of 
China when they cut off supply, the price, you know, increased 
dramatically which stopped a lot of the use. Because right now, 
as I understand it, opioids are very inexpensive. The street 
stuff is very inexpensive to get. Do you have any comments on 
that?
    Mr. Robinson. I mean, I think we always have to be diligent 
when it comes to attacking supply. One of the problems that has 
happened with the prescription drug problem is that it is hard 
to stop the supply when you have grandmas and people who in 
their medicine cabinets have a 90-day prescription or a 30-day 
prescription for oxycodone. And the opiates we looked at, you 
know, 20 to 25 years ago are nowhere near as potent as it is 
today. When you take a pill such as an Oxycontin table that 
has--is supposed to release the morphine, the opiate, over time 
and then you crush it and it gives you the full potency of 
that, the addictive nature of that is just so much more than 
maybe just the heroin that was available in the '50s and '60s.
    The other thing is now we are getting these synthetic 
versions, like carfentanyl and fentanyl, which are 100 and 
1,000 more times more potent.
    Mr. Allen. But again, that is a business decision by the 
pushers to get more people addicted. I mean, you have got to go 
to the source here and stop this.
    Mr. Robinson. Yes, absolutely on the pharmaceutical 
companies.
    Mr. Allen. If we get serious we can stop it. I mean, the 
country I think has got to get serious about stopping this 
problem. I mean, you can't just say laissez-faire, we are going 
to prescribe some byproduct. Now, obviously we have got to do 
something with those folks who are on drugs, but until this 
country decides we are going to deal with this and we are going 
to deal with this in a way that we are going to stop it, I 
don't know how we stop it. I mean, is there any disagreement?
    You know, in other words, we have a very, very serious 
problem here. And, you know, I am hearing, well, treatment and 
throwing more money at it and this sort of thing, we have got 
to stop--it is always the money. You know, in China, you know 
who it was? It was the British that were making all the money 
off the drugs. And so, you know, I wish you all the luck in the 
world and I am thankful for what you are doing. Thank you so 
much for what you are trying to do.
    I yield back.
    Chairman Brat. Thank you. I recognize Mr. Courtney for 5 
minutes.
    Mr. Courtney. Thank you, Mr. Chairman. I want to thank the 
witnesses for your thoughtful testimony today. Again, and the 
topic of the hearing which is to sort of even get beyond the 
emergency, you know, first responder healthcare, but the ripple 
effect that is happening in communities, which is true in New 
England as well. A couple of weeks ago, I was with the school 
superintendent up in Enfield, Connecticut, which is a suburban 
town in Hartford County. It's about 50,000 population which 
again in 12 days this year they had 13 overdoses, you know, 
show up at the police and volunteer fire department. But the 
school superintendent actually pulled out some data which was 
actually pretty--it was even another layer of alarm because he 
was describing what they are seeing in kindergarten in the 
schools where, again, behavior is just totally unprecedented in 
terms of what teachers and staff are seeing.
    So, for example, they have the data, physical assaults in 
kindergarten in the school year of 2013-2014 were 1 for the 
whole district, there were 14 in 2016, last year's school year. 
The emergency protective holds in kindergarten in 2013 were 
four. There were 114 in 2016. And, again, the kids with 
emotional disturbance--and I am going to submit this data for 
the record, Mr. Chairman--but what it is doing to teachers is 
that--you know, these are veteran kindergarten teachers who are 
like at the end of the school day in tears because they are 
just so overwhelmed with kids.
    They have a term for some of the kids, they are called 
runners, where they just literally bolt from the classroom out 
the building, chasing them in the streets. And so, you know, 
this has created a challenge that aside from everything else 
that school superintendents have to deal with in terms of State 
budgets and local property taxes, about how do you get some, 
you know, stability under the roof of a school district.
    So one of the things we did in this committee with the 
ESSA, which was a great bipartisan achievement when signed by 
President Obama, but a lot of the Republican members were there 
at the White House, that updated the Elementary and Secondary 
Education Act. We again really bolstered the Title II, Title I, 
and Title IV funding that directed money to help schools, and 
teachers in particular, to sort of get trained up to deal with 
these behavioral health problems, which again didn't really 
exist even as recent as 4 or 5 years ago.
    And, Dr. Cox, I mean you have really talked about this 
challenge that you are seeing with your staff. The Title II-A 
funding that came out of this year's budget from the White 
House and the majority is zero. And, I mean, that is the exact 
opposite direction we ought to be going right now in terms of 
what we are seeing because obviously we are talking about kids 
in kindergarten. I mean, this is just the bow wave. This 
problem is going to get worse as kids, you know, obviously come 
in waves, you know, upcoming years as well as what their 
behavior is going to look like as they go through the other 
grades in the school system.
    So, again, can you describe what you are seeing? I mean, 
are you seeing teachers who are overwhelmed with trying to deal 
with behavior problems that again are just unprecedented?
    Dr. Cox. Absolutely. And, you know, I refer back to my 
testimony. In meeting with my principals yesterday at our 
monthly meeting, every time I meet with them and when I visit 
schools that is what I hear. And just as an example of that I 
hear stories, today we had this issue, and sometimes kids do 
run. But the number of very serious discipline issues that kids 
have just increased. And I will benchmark it in 5 years that I 
have seen the sharp increase. And we have to hire additional 
people just to be with the kids. We don't have the funding for 
that. I mean, we have to take it from somewhere else. And so, I 
mean, we have higher class sizes than we would like to because 
you have got to do what you have got to do and we don't have 
enough resources to do it.
    Mr. Courtney. Well, what you just said is exactly what 
Superintendent Drezek in Enfield described, which is that they 
need social workers, they need help, but they are already 
running into staffing challenges just in terms of having people 
in the classroom.
    And so, Mr. Chairman, I would like to introduce this data 
from the town of Enfield for the record. And, again, I want to 
thank the witnesses for really raising the alarm about the fact 
that we are just dealing with the beginning of this problem, 
not the end of it.
    Thank you.
    Chairman Brat. Thank you. I will recognize myself for 5 
minutes and I will start with Ms. Miner and others can weigh 
in.
    Ms. Miner, do you have any experience or have children in 
your programs who have experience with recovery high schools 
and colleges?
    Ms. Miner. Not in my experience, no, I do not.
    Chairman Brat. Well, I will fire away and maybe you have 
recommendations based on your work, and others can weigh in as 
well.
    The President's Commission on Opioids calls for better 
educating middle school, high school, and college students with 
the help of trained professionals, such as nurses, counselors, 
who can assess at-risk kids. As you know, this epidemic does 
not just affect older working Americans, it is affecting high 
school and college kids as well. The President's commission 
also calls for supporting collegiate recovery and changing the 
culture on campuses, which I think is great. There is a 
recovery high school in my district called McShin Academy, 
where they are seeing great success just 1 year into their 
program.
    And so my question is, how can we focus on supporting 
recovery high schools and colleges where those kids are having 
great success? And, Ms. Miner, if you want to weigh in based on 
what you may have heard about them, and others if you want to 
weigh in as well.
    Ms. Miner. Thank you. I really have not heard a lot about 
them. I mean, it sounds like it would be something amazing 
because opioid abuse is very prevalent in high schools, in 
middle schools. I know my middle daughter, when she first got 
into abusing substances it was prescription pills. And she was 
in high school and then she had someone come up to her and say, 
hey, try this heroin. It is going to get you higher, keep you 
higher for longer, and it is more easily accessible and it is 
cheaper. And then she went to that.
    And we need to educate our kids. It is a must. They have 
got to know the effects that the drugs are going to have on 
them, not just that day, but long-term, and to be real with 
them. I actually go and talk in different schools and I am not 
going into the schools to tell the kids don't do drugs because 
drugs are bad. I am real with them and I tell them this is why 
you should not do the drugs, because you could wind up liking 
them way too much.
    Chairman Brat. Thank you. Any others want to weigh in on 
that one? Mr. Robinson?
    Mr. Robinson. I think one of the reasons that works so well 
is because addiction is a disease and it requires treatment and 
requires support. And so for kids in high school who go to a 
recovery high school, that gives them that support they need, 
to have a peer support specialist, the counselor. Same thing on 
the college level. With all the temptations that are on typical 
college campuses it would be a very hard place for somebody in 
addiction to go and be successful. And not just in high schools 
and colleges, but I think what we are doing, in taking 
vocational workforce development to get people in addiction 
straight out of treatment and then give them that vocational 
rehabilitation and then prepare them for a job to go right to 
work then, to produce people who can just reenter the workforce 
instead of going back and selling drugs.
    Chairman Brat. Right. Thank you very much. I am going to 
ask a question for my colleague, Jason Lewis, from Minnesota. 
And if any of you want to weigh in on this one. Question, it is 
aimed at Ms. Miner again. Each of you has mentioned the 
importance of coordinating with other entities and services in 
the community. As part of the committee's work to reform the 
Juvenile Justice and Delinquency Prevention Act we specifically 
included renewed focus on community coordination of services to 
prevent and address juvenile delinquency through the local 
delinquency prevention grant program.
    Ms. Miner, can you discuss why coordination of services at 
the community as well as identifying and addressing any gaps in 
services is critical to success for at-risk youth?
    Ms. Miner. I believe that is really addressing the family 
as a whole, not just the youth. Like we have said before, 
addiction is a disease and it affects the entire family. So 
when you are going in and you are working with these youth more 
times than not what I have seen is that the addiction goes back 
to the parents, back to the grandparents. So we are not just 
dealing with this youth who is now getting in trouble.
    Collaboration is a must. We have got to talk to each other 
so that these families do not slip through the cracks so that 
we can actually better educate them on how they can help their 
whole family.
    Chairman Brat. Okay. I would like to recognize Ms. Blunt 
Rochester for 5 minutes.
    Ms. Blunt Rochester. Thank you, Mr. Chairman. I first want 
to really thank the panel, Mr. Robinson and Ms. Miner, for your 
personal stories. You deeply touched me and I want to thank you 
for that and also for the work that you are doing; Dr. Wen and 
Dr. Cox for being on the front lines. I am a new member of 
Congress and so to hear you reminds me again why we are here. 
So I want to thank you all for that.
    A few weeks ago, I had an opportunity to meet with neonatal 
nurses in the State of Delaware, and we talked about neonatal 
abstinence syndrome. And I wanted to go back to something in 
your testimony, Dr. Wen. You said that you--in the testimony 
you said the number of babies born addicted to drugs has 
tripled between 1999 and 2013. Can you talk a little bit about 
the long-term effects of neonatal abstinence syndrome on 
children in their academic performance? And, also, has there 
been enough funding or research in these areas to help us 
understand the effects of NAS on children as they mature? And 
Dr. Cox, you could also join in on that as well.
    Dr. Wen. We are seeing a skyrocketing of the number of 
babies who are born addicted to opioids. Many of these 
children, many of these babies end up having severe problems 
from the very beginning, including seizures and other 
withdrawal symptoms that could be fatal. And many of them end 
up having long-term effects as well, including reduced academic 
performance. Again, emphasizing why it is that we have to 
intervene as early as possible. And as early as possible means 
that we need to provide treatment to women, we need to provide 
treatment to pregnant women, and also to women before they get 
pregnant, and in general to people because otherwise we are 
going to be perpetuating the cycle where poverty and trauma and 
violence and addiction ends up in another generation as well.
    And I think this illustrates the necessity of early 
investment of treatment of early detection and also of reducing 
stigma. It is critical that we talk about addiction as a 
disease, as everyone here has been talking about, because there 
is treatment available, because we know that recovery is 
possible. And unless we fight that stigma then people are going 
to continue to have a disease that otherwise would be 
preventable and treatable.
    Ms. Blunt Rochester. Dr. Cox?
    Dr. Cox. Sure. Dr. Wen certainly is in a better position to 
address the medical aspects. And, again, we have about one in 
five of our children born in our hospital who are drug 
affected. And so we make an effort to reach out to them, but we 
are only able to service about 11 percent of those identified 
because it is voluntary. And some of the things that are 
reported to me, the lack of executive function that the 
children have and just creating very difficult issues that gets 
to the learning, you have to approach that in such different 
ways and that is one of the things that we struggle with.
    Ms. Blunt Rochester. You know, the reason why I really 
wanted to focus on that as particularly Ed and Workforce, we 
are talking about not just high school and college students or 
those who are older, but we are talking about babies and then 
middle school, as you mentioned. And so it is sort of the 
continuum. And I want us to think about how that impacts our 
workforce, how that impacts the quality of life, healthcare. It 
is all connected.
    I wanted to ask, also, Dr. Wen, is there a national 
standard of care for screening or treating NAS and how would 
creating one help improve treatment for newborns?
    Dr. Wen. We need to do a lot more when it comes to 
addressing this issue, including with a national standard. But 
I want to bring us back to how can we prevent neonatal 
abstinence syndrome to begin with, which involves early 
detection for pregnant women that includes increasing our home 
visiting services so that we are able to bring women into 
treatment and critically expanding treatment overall so that 
everyone has access to live saving services.
    Ms. Blunt Rochester. Thank you. Thank you, also, for 
mentioning home visiting. I think that is one of the most 
important programs and one that has been in jeopardy of many 
cuts. And so again, I thank each of the panelists for your 
testimony and I yield back.
    Chairman Rokita. Thank the gentlelady. The gentleman from 
Alabama is recognized for 5 minutes.
    Mr. Byrne. Thank you. Dr. Cox, I have a question for you. I 
am a former State school board member in Alabama and sort of 
keep up with things. And I have heard, and it is very 
disturbing to me, that a lot of our young athletes in high 
schools get injured in practice or in a game, they go to get 
treatment and their physician prescribes a painkiller, an 
opioid, for them and they get hooked. And so I am hearing a 
large number of our young people are hooked on opioids are 
actually starting out getting a legitimate prescription for 
pain drugs because of a sports injury, but then it just gets 
carried away. I mean, either they don't understand what they 
are on, then they get hooked and they start doing inappropriate 
things to get more opioids. I don't know if you have had any 
experience with that, if you have any views of what we can do 
about that.
    Dr. Cox. Sure. I think it is not just student athletes, but 
any time someone presents at an ER or, you know, has a pain 
issue, part of that according to--well, our western Maryland 
health system has developed ER protocols and has tried to 
educate ER physicians about pain management, and that certainly 
is a problem. We have had students, unfortunately, that have 
been prescribed opioids and it has become a problem. But it is 
not limited to just our students. And that is an area that I 
think is ripe for growth, too. We have in my opinion too many 
prescriptions being written for opioids.
    Mr. Byrne. I agree with you, it is bigger than athletes, 
but high schools--athletes are playing on our sports teams, et 
cetera, so I sort of feel like we have a little extra 
obligation to be looking out for them. What can we do for with 
our student athletes?
    Dr. Cox. Well, I think it is an education effort. Maryland 
has taken a lead in this. We actually have legislation that was 
passed this year that addressed education efforts in high 
schools. And we have--this is actually a copy of the opioid 
awareness and prevention kit. So it is a good resource from the 
Maryland State Department of Education. It is a part of our 
health curriculum where we teach our children, you know, the 
dangers of taking opioids when they are not absolutely 
necessary.
    So I think it is a two part. I think it is educating 
physicians and folks as they present in ER plus educating our 
kids through our curriculum and efforts to let them know ahead 
of time the dangers, that when you take substances like these 
they can be addictive. So we are addressing that way.
    Mr. Byrne. Dr. Wen, you know, when young people, whether 
student athletes or not, when they come to an emergency room or 
come to a physician with a problem, they are young people, they 
don't necessarily have the same judgment as an adult does and 
they don't necessarily have the same knowledge of what an adult 
does. What extra do we need to be doing working with young 
people to help them understand, hey, this painkiller is not for 
you to take forever? And you need to be careful that you find 
yourself becoming too used to it and wanting to have it all the 
time, describing to them. What is the obligation of the medical 
profession with regard to this?
    Dr. Wen. We know that there is an overprescribing of 
opioids that is fueling this epidemic. And the CDC has put out 
excellent guidelines for urging more careful prescribing and we 
in Baltimore have been working with all of our doctors to 
ensure that those guidelines are followed. Doctors also need 
better tools as well. If opioids are the only tools that we 
have for pain management, that is what we end up turning to. 
But actually there are many other alternatives that we need to 
be exploring. But I think you bring up a very important point 
about what we do for young people because we know that what 
works for children is not just teaching about saying no, we 
also have to ensure that young people's lives are not ones that 
they want to escape from. And that is why the early investment 
and nutrition and family literacy and housing, all of these 
other services are critical as well to prevent drug use.
    Mr. Byrne. Now, I will just make this observation, and this 
is not in any way an indictment of the medical profession, but 
we come to you, we the nonmedical profession public come to you 
when we have a health problem. We put ourselves in your hands. 
Parents, we put our children in your hands. We have an injured 
young person, you know that they are going to have a lot of 
pain from whatever you are doing, you are using your 
professional judgment as to what they should be taking to deal 
with that pain. Maybe there is also an obligation on behalf of 
the medical profession to spend a little more time with the 
family and the young person saying, now wait a minute, this is 
a very serious pain pill you are taking here. This is not 
something for you to take lightly. Let us go over what you 
should be doing and not doing with it.
    So I just offer that observation, not in any way as an 
indictment of your profession. But I think if we all work 
together I think we can do something about this epidemic.
    With that, I yield back, Mr. Chairman.
    Chairman Rokita. The gentleman yields back. Ms. Adams, you 
are recognized for 5 minutes.
    Ms. Adams. Thank you, Mr. Chairman. And thank you all very 
much for being here and for your testimony today. Mr. Chairman, 
I want to enter into the record if we can a Time'smagazine 
article regarding the President's desire to stop the opioid 
crisis and the actions that don't match.
    Chairman Rokita. Without objection.
    Ms. Adams. Thank you very much. Let me direct this first 
question to Dr. Wen. Do home visiting services like Head Start 
and other early learning programs make an impact on the 
outcomes for children in difficult situations? For example, 
when a child suffers from trauma due to a parent's struggle?
    Dr. Wen. Home visiting programs make a profound difference 
in children's lives and in the future of their families. Home 
visiting, for example, has been shown to reduce infant 
mortality, to improve health for children. Home visitors might, 
for example, find that there is paint that is peeling, that 
there may be lead poisoning hazards in the home. Home visiting 
also has been shown to increase educational outcomes for that 
child as well as for the mother.
    There can also be detection of other issues that come up 
during home visiting, for example, on domestic violence, on 
smoking in homes, on other traumatic instances for which there 
are interventions that are possible. For home visiting to be 
effective it must be fully funded. And not only is home 
visiting itself important, care coordination is important, too, 
because we also have to identify those families that are at 
greatest risk in order for the home visiting to even occur in 
the first place.
    Ms. Adams. Thank you. Are there other ways and 
opportunities to leverage early learning and early supports to 
respond to the opioid crisis?
    Dr. Wen. We need to be doing everything we can to invest in 
our children in support for their family, recognizing that 
things like housing are part of healthcare. Food and 
nutritional support are critical to education and to health. 
And recognizing this life course approach is important, too. If 
a child is experiencing trauma because of substance addiction 
in their families, what we have to do is to treat their 
families and make sure that treatment is available at the time 
that people are requesting. It just is not appropriate that 
only 1 in 10 people who have the disease of addiction are able 
to get treatment. We have to invest in treatment now because 
that is also key to preventing the cycle of addiction from 
fostering.
    Ms. Adams. Thank you. Dr. Cox, the School Superintendants 
Association, along with the Save Medicaid in Schools Coalition, 
expressed a concern about how the American Health Care Act, 
also known as the Trumpcare bill, would jeopardize healthcare 
for the Nation's most vulnerable children. And the coalition 
sent a letter urging Congress to avert the harmful and 
unnecessary impacts that AHCA would impose on Medicaid.
    So can you discuss the role of Medicaid in providing the 
school-based health services in your county? And are you 
concerned about efforts to cut Medicaid there?
    Dr. Cox. Sure. In my district alone part of our funding 
structure is we get about $2.5 million a year in reimbursables 
for the medical services that are delivered to our children 
while at school to meet their learning needs, and a lot of that 
is through their IEPs. We have children that are medically 
fragile, all kinds of different things. And AASA has taken a 
position on that as well. I would just reference that about 50 
percent of my children in my district do qualify for services 
for the children's insurance healthcare, or CHIP. And so we are 
concerned about that as well.
    Ms. Adams. Thank you very much. Ms. Miner, thank you for 
being here, thank you for sharing your story. And I appreciate 
your comments on focusing on the whole family, which is the 
approach that we need to take to address this addiction. We 
have the jurisdiction over programs in this committee that 
serve pregnant mothers all the way to programs that serve the 
elderly. So we have that opportunity right here in our 
committee to address those things.
    Can you discuss why this holistic approach is absolutely 
needed?
    Ms. Miner. Sure. Addiction is a family disease. It does not 
just affect the addict. We have got to serve the entire family. 
We have got to go in and we have got to educate teen moms, we 
have got to educate them when they are young. I have 
conversations with my teenager and with my 8-year-old that are 
in my home all the time about drugs and alcohol and cigarettes 
and why they should not use them. And they carry this with 
them. They go into school and they talk about it. They have 
deep discussions with their peers at school. They go out in the 
community and talk about it as well. It is really about 
prevention and intervention with the families.
    Ms. Adams. Thank you very much. And, Mr. Chair, I yield 
back. I am out of time.
    Chairman Rokita. I thank the gentlelady. Mr. Mitchell, you 
are recognized. No, no, no, Ms. Stefanik, you are recognized 
for 5 minutes. Excuse me.
    Ms. Stefanik. Thank you, Mr. Chairman, and thank you to the 
committee for having this hearing today to highlight such an 
important issue. As we know, the opioid epidemic has wreaked 
havoc across this Nation. I represent the North Country, which 
is a district in upstate New York, and we have seen an 
exponential increase in deaths related to the heroin opioid 
crisis. And many of my local law enforcement, many of my 
counties, many local advocacy groups have come together to 
really foster these types of conversations in the local 
communities.
    My question, and I want to direct it to Ms. Miner to start 
with, I have met with so many families impacted, whether it is 
a recovering addict themselves, whether it is a parent who has 
lost an adult child, whether it is healthcare professionals, or 
whether it is principals and teachers. My question to you is, 
yes, it is important to educate our youth about risks 
associated with drug abuse, but I also think it is important 
that parents, teacher, guidance counselors, employers, 
managers, have resources and understand what the best practices 
are so they can identify this early, early enough to help an 
individual seek care.
    Can you talk about what resources you wish you had and what 
best practices there are out there?
    Ms. Miner. I wish that we had more beds available. When Dr. 
Wen had mentioned earlier about when a parent is ready and they 
say that they are ready to quit, it takes a lot for a parent to 
be able to come forth and say I can't do this anymore, I need 
help. And then for them to be told we have nothing for you, you 
are going to have to wait weeks or sometimes you have to wait 
months, I have seen way too many overdoses because of the 
parents that are waiting. They go back to what they know, and 
that is the substance use to make them feel better.
    We absolutely have to educate everyone that is involved 
with this person's life, whether that be the schools, the 
employers, the community resource centers, anyone who comes in 
contact with this family, we have got to educate them and 
really talk about what it might look like, you know, if little 
Johnny is getting to school later and later, or he is missing 
more and more school, could there be a problem. And how the 
schools or whoever is coming in contact with this family can 
approach that child without it feeling like it is an 
interrogation or feeling like they have done something wrong or 
that they are too afraid to tell on their parents.
    Ms. Stefanik. Let me ask you about the flip side for a 
parent being able to identify in their child, let us say a high 
school age child--I met with a recovering addict who was a 
nationally recognized athlete and had an injury. She went 
through an operation and was prescribed pain medication. That 
led to a downward spiral of addiction, in and out of jail. And 
she was a very powerful advocate about how her--she was very 
good at hiding it, she said. And her parents didn't know, her 
coaches weren't aware of this issue. How do we educate the 
parent in that situation, when the parent is not the addict, 
but they are the parent of a child who is the addict?
    Ms. Miner. I would say just we have got to break the stigma 
about addiction. Everybody looks at addiction as a really bad, 
dirty, ugly thing and they don't look at that it could be 
something that is being prescribed, especially to our children 
by our doctor, because we trust these doctors with our children 
and they sometimes are the ones who are overprescribing our 
youth. And it is really about educating the parents and sitting 
down and talking to the parents about differences in what their 
attitudes or their behaviors might be like, how they are 
reacting to things. I know that in my own experience that when 
my daughters had started in their active addiction their 
behavior toward me changed. They became more aggressive toward 
me and wanted to argue with me about a lot more things than 
what they did prior to that.
    Ms. Stefanik. And, Dr. Cox, if you could follow up from a 
school's perspective, how do principals, teachers, coaches, 
guidance counselors, how do we arm them with the resources and 
the education they need to identify when a student is going 
down the path towards addiction?
    Dr. Cox. Well, again, it is part of a comprehensive 
education effort and that is a part of our total health 
curriculum that starts in elementary school where we talk about 
this. And we have the DARE program at fifth and eighth grade, 
but also it really gets intense in our high school health class 
where we have actually recovering addicts who speak to our 
students. Our sheriff comes in and talks about all the things 
that he has seen. So we try to give them the best information 
that we can so that they can at least be forewarned.
    Ms. Stefanik. So the students are forewarned, but how about 
teachers? Not the health teacher, but the average teacher in 
the school, do they have the resources and the education they 
need?
    Dr. Cox. Well, let me give an example of that. You know, we 
have made it part of our professional development. This year at 
the beginning of school we convened an opioid panel of 
community experts and we actually recorded that. So it has been 
made available for our schools to use to show our teachers. It 
gives them the facts and information. And then also----
    Ms. Stefanik. Thank you. My time has expired. I am sorry 
about that.
    Dr. Cox. Sure.
    Chairman Rokita. I thank the gentlelady. Time has expired. 
Mr. DeSaulnier, you are recognized for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. And as someone who 
has spent some time on this issue in the course of my public 
service, I just want to remind folks some startling numbers. 
The United States has 4 percent of the world's population, but 
we consume 80 percent of the opioids in the world. Since 2000, 
over 200,000 Americans have lost their lives to opioid 
addiction. Four out of five heroin users started with the 
opioids. In 1995, when OxyContin started, the abuse of opioids 
was nonexistent. Quickly thereafter it became a catastrophe for 
this country.
    Ms. Miner, first to you. As the son of a parent who had 
addiction problems, whose struggle was stigma and shame, I just 
want to tell you how proud I am of your testimony and your life 
testimony. In getting over stigma and shame in my relationship 
with my dad, who was not as successful as you, he ultimately 
lost his life to addiction, we have come a long way. But you 
telling your story, but tell me what would have happened, do 
you think, as you reflect back, if that child welfare worker or 
public employee hadn't interceded the way he did, when he did? 
Where do you think your life might be right now?
    Ms. Miner. I think that I would probably be dead or in 
prison. I really don't believe that I stood much of a chance 
had I not had that one person that truly believed me and saw 
something in me that I was not able to see in myself at that 
time and to offer the supports to me for me to remain clean.
    Mr. DeSaulnier. So to take something that is very emotional 
and put it in that sort of actuarial perspective, and this goes 
to cost and responsibility and prevention, intervention is what 
we should be doing, but ultimately, Dr. Wen, as a physician we 
want to get to prevention and root cause.
    So there is a recent story, very troubling, in The New 
Yorker, if it is true, it is titled ``The Family That Built an 
Empire on Pain.'' It is about Purdue Pharma. My experience when 
then-Attorney General Kamala Harris and I were working on 
simply upgrading the prescription monitoring system in 
California, which came to us by a software engineer who was a 
constituent who lost two children who were hit by someone who 
was abusing and doctor shopping, all we wanted to do was have 
real-time information, so the Department of Justice, the 
pharmacist, the doctor, could see if anyone is abusing. It has 
been in effect now and it has worked. But it was obvious to me 
that the pharmaceutical industry and the lobbyists in 
Sacramento did not want that to happen. And I intuitively 
thought that it was because they were making money on the lack 
of our knowledge.
    So in this article they talk about their senior medical 
advisor, once publicly likening addiction of Oxycontin to 
celery, where he said if you take celery--he said this at an 
event at Columbia, talking about addiction and opioids--it is 
healthy for you, but if you blend it and put it in your 
arteries, inject it, it is bad for you. So in that article it 
also talks about the response from Purdue Pharma is that 
clients don't abuse it, drug users abuse it, which, Ms. Miner, 
strikes me as throwing it right back on the addict. And 
personal responsibility is also the people who sell this.
    So could you talk to me a little bit about addiction, 
prevention, root cause, and what the ultimate cause is, and who 
pays for that?
    Dr. Wen. We did not get to this problem of the opioid 
epidemic overnight. There are a lot of people who have to take 
responsibility, including me as a physician. I know that I 
overprescribed opioids because that is what I learned in my 
medical training to do. That is the culture in medicine that we 
have to work to change. Big Pharma, though, plays a big role in 
this as well. They had misleading advertising and perpetuated 
this pill for every pain culture. If you fall down and you 
bruise your knee, it is okay to have pain, you don't have to 
take it away with opioids. There is a risk, there is a side 
effect. That is something that we can all work to change today.
    We have been talking a lot about education in schools. And 
if you ask a student do you think heroin is good or bad, 
probably they will know that heroin is bad. But when they see 
their parent or their caregiver taking pills for back pain, for 
dental pain, that is a culture that we also have to work to 
change.
    Mr. DeSaulnier. So, Dr. Cox, you talked about generational 
addiction. So unlike tobacco, opioids we now know have addicted 
future generations, and people have benefitted, just like the 
tobacco industry, off of this addiction; not to ascribe blame, 
but trying to identify responsibility to get at prevention.
    Dr. Wen, back to you as a public health official. Unlike 
tobacco, we need to go back upstream. If there was a settlement 
agreement some years down the road, and I know that there is 
litigation around the country from attorney generals, the cost 
seems so out of proportion to the public cost of healthcare 
around secondhand smoke.
    Dr. Wen. We need much more investment and perhaps Big 
Pharma can help us to pay for the effects of addiction that 
they have helped to create.
    Mr. DeSaulnier. Maybe they should be held responsible.
    Thank you, Mr. Chairman.
    Chairman Rokita. I thank the gentleman. The gentleman from 
Wisconsin is recognized for 5 minutes.
    Mr. Grothman. Yes, a couple of questions. As has been 
mentioned, I don't know any child out there who gets through 
school without knowing that opiates are bad for you. 
Nevertheless, I would like--Dr. Cox said something before and I 
would like follow up. You mentioned you had DARE and other 
programs in your school system. Could you or anybody else be a 
little more animated about what doesn't work? What are we 
wasting money on so we can stop wasting money on it and 
genuinely get people not involved in these opioids? Could you 
give me examples of things that don't, so you can--anybody have 
ideas of things that aren't working?
    Dr. Cox. I think that is a hard question to answer. I mean, 
you are talking about messaging to kids. And we don't really 
have mechanisms to know how the messages have been effective or 
not. It admittedly is a shotgun kind of approach.
    Mr. Grothman. It is a little shocking. It is shocking. You 
don't have any opinions on things that aren't working? I mean, 
I have read articles on things that aren't working. None of you 
up here knows things that are not working so we can stay away 
from them?
    Dr. Cox. Well, I will say I don't feel that anything we are 
currently doing is not working. You know, specifically from our 
DARE program we get lots of parental feedback on that, it 
creates a great relationship with our law enforcement 
community.
    Mr. Grothman. You might want to Google DARE a little bit 
and dig a little bit deeper.
    Dr. Cox. I am aware of what you are speaking about.
    Mr. Grothman. Okay. Next thing, I wonder if anybody could 
comment on the criminal end of this? I know in my area, at 
least in more liberal counties where a lot of the drug dealing 
is going on, it is sometimes amazing how little the penalties 
are and how people are getting off with very little. Does 
anybody want to comment on what we could do on the criminal 
justice side to maybe persuade people not to become dealers? 
Anybody have any comments on that?
    Mr. Robinson. I think one of the things to get people not 
to be drug dealers, a lot of those--you know, if we have got 
somebody that is part of a criminal syndicate, we need to 
prosecute them and put them in jail. But most of the dealers 
that we see are people that are dealing to support their habit. 
So the best way to get those dealers not dealing is to put them 
into a treatment program, give them a job skills course to 
allow them to go back to work and have a different way to 
support themselves than dealing drugs. And we have a lot of 
petty drug dealers that are just supporting their habit.
    Mr. Grothman. I am talking about Milwaukee because I am 
from Wisconsin and obviously very, you know, ``liberalish'' and 
maybe ``liberalish'' judges, ``liberalish'' DA. I wonder 
whether around the country there is also a concern that there 
are areas of high drug dealing in which people are not 
receiving appropriate sentences. Given the huge number of 
people who are dying does anybody feel that you have seen not 
enough people being thrown in prison for, as a practical 
matter, killing people?
    Mr. Robinson. In Kentucky, we have broke our corrections 
budget in most of our counties. The county executives, their 
biggest cost that they are paying out is their jail budgets. I 
toured a jail a couple of weeks ago that had twice as many 
inmates as it was set up for because we have tried to 
incarcerate ourselves out of this. And we have to treat and 
then vocationally prepare people out of this problem.
    Mr. Grothman. Okay. I will give you one more question, 
because we are running out of time here. Are any of you aware 
of any studies of people who go through this? I know it can 
happen from any family, horrible things can happen in any 
family. But on the family background of both the dealers and 
the people who are, you know, arrested for possession, that 
sort of thing, do we have any studies on that? Any indications 
on, you know, where this disproportionately affects people?
    Dr. Wen. We know that 8 out of 10 people who are in our 
jails in Maryland use illegal substances. Four out of 10 have 
mental health issues----
    Mr. Grothman. No--okay. Mental health is a big issue and 
what mental health issues are those?
    Dr. Wen. It could be a combination of things, depression, 
schizophrenia, anxiety. They are often coexisting with 
substance abuse. And it is important for us to treat these 
diseases as the diseases that they are because an investment in 
public health is an investment in public safety. For every $1 
invested in treatment, it saves society $12, including of 
criminal justice and incarceration costs.
    Mr. Grothman. Does anybody know any different on background 
of these people?
    Mr. Robinson. When it comes to IV needle users, which are 
some of the folks that are most addicted, 80 percent of IV 
needle users today had a childhood trauma that is linked to 
their current issues. And so those early childhood traumas and 
not dealing with that is a major----
    Mr. Grothman. Can you describe trauma? Nobody knows what 
that means? What is a childhood trauma?
    Chairman Rokita. I think the gentleman's time has expired.
    Mr. Grothman. Yes. Could you----
    Chairman Rokita. The gentleman's time has expired. The 
gentlelady from Oregon is recognized for 5 minutes.
    Ms. Bonamici. Thank you, Mr. Chairman. Thank you to the 
witnesses, value all of your testimonies but, Ms. Miner, Mr. 
Robinson, thank you so much for being here and sharing your 
very personal stories. It takes courage to do that in such a 
public forum, but it really does make a difference.
    I am from Oregon where, of course, this is affecting every 
community, not just urban, but also rural communities as well. 
In 2015, 180 people died from just prescription opioids in 
Oregon. That doesn't include the nonprescription. I just had a 
community discussion on opioids in Clatsop County, Oregon, 
which is a pretty rural coastal community. My constituent, 
Kerry Strickland, who I had met before, she created Jordan's 
Hope for Recovery. She lost her son Jordan--it started with a 
sports injury, following up on what my colleagues already 
mentioned--after a 7-year struggle with addiction and relapse. 
And her family's loss is just a reminder that we are talking 
about, you know real people and how this affects people in 
communities.
    But there were some very common themes here about the 
inability--and we had this roundtable--the inability when 
people are ready, the inability to get them into treatment. And 
there are just too many barriers. Like you said, we know what 
to do, we just don't have the resources in many cases.
    This crisis is tearing our families and communities apart, 
but it is not the first time. We went through this back; it was 
about 30 years ago, when the crack cocaine epidemic that 
disproportionately affected marginalized minority communities 
and, unfortunately, our country tended to respond with 
increased criminalization of abuse and addiction.
    And, Dr. Wen, thank you for recognizing, as others have, 
that addiction is a disease, we should treat it as a disease. 
We know that our response then affected an entire generation of 
people and led to some pretty severe disadvantages and stalled 
educational progress and poor academic, employment, and life 
outcomes. So this is key, the conversation that we are having 
today.
    You know, the President just declared that the opioid 
crisis is a public health emergency, but he didn't provide the 
financial resources that we need to fight the epidemic. So we 
don't just need a declaration. We need resources and we know 
where they need to go: prevention, recovery, treatment. And by 
bolstering the Affordable Care Act, for example, Medicaid, 
fully funding the Every Student Succeeds Act, programs that 
provide for health services for our students who are in schools 
- this is all really important.
    I just visited a school-based health clinic in a high 
school in my district, and what a difference it makes for those 
students to have somewhere right there on campus where they can 
go, whether it be to talk to a counselor, get a vaccination, 
get healthcare right there on campus. It really makes a 
difference.
    Dr. Cox and Dr. Wen, according to the original Adverse 
Childhood Experience, ACE, study by the CDC, individuals with 4 
or more traumas were 12 times more likely to have attempted 
suicide, 7 times more likely to have alcoholism, and 10 times 
at greater risk for intravenous drug use. And we know that 
childhood traumas affect child brain development, children 
living in households, as we heard from Ms. Miner, with 
addiction are living in environments of chronic toxic stress.
    So Warrenton-Hammond, which is a school district again in 
Clatsop County, in my district, is helping students by their 
incorporating trauma-informed practices into their school 
system. They have shifted from a punitive to a compassionate 
approach to school discipline, suspensions have gone down, 
attendance has improved.
    So, Dr. Cox and Dr. Wen, you know that teachers and our 
school staff are oftentimes the first responders to the opioid 
epidemic. So are there tools and resources that teachers need 
to build around our knowledge of childhood trauma in order to 
be good first responders? And I want time for other questions.
    Dr. Wen. In Baltimore City, we have started trauma-informed 
care trainings, including for all of our frontline city 
workers, such as our teachers. We have done now trainings for 
over 2,000 of our staff so far. It is important to shift the 
mentality, not look at someone as the perpetrator of violence, 
but rather as the victim of deep trauma. And that will help us 
to break the cycle that we talked about.
    We also have to increase mental health services and 
substance abuse services in our schools, too. We have to 
provide services exactly where they are. In addition to 
recovery high schools, also increase services and screening 
right in our schools.
    Ms. Bonamici. Thank you. And, Dr. Cox, I want you to 
respond to this, during Every Student Succeeds Act 
reauthorization Congress authorized Title IV-A at $1.65 billion 
because members on both sides of the aisle understand the 
importance of these programs. Title IV-A is currently funded at 
$400 million. Now, we have worked very closely with AASA, the 
School Superintendents Association, of which you are a member, 
to try to increase that funding. Isn't it important that 
Congress uphold its promise to get that funding so we can get 
these programs into schools?
    Dr. Cox. Absolutely. It is the position of AASA that we 
need the complete funding.
    Ms. Bonamici. Thank you. It is not just the flexibility, it 
is the funding.
    And finally, I just want to close with a follow-up to the 
DARE program. I certainly hope it has been updated from its 
early '80s days because it was woefully ineffective. And I am 
hoping that it is----
    Dr. Cox. It has.
    Ms. Bonamici. To an evidence-based program. Because there 
are ways to figure out what works and what doesn't. And if it 
is evidence-based that would be useful.
    I yield back. Thank you, Mr. Chairman.
    Chairman Rokita. The gentlelady's time has expired. The 
gentleman from Indiana is recognized for 5 minutes.
    Mr. Messer. Thank you, Chairman Rokita. I want to thank the 
panel for your testimony today and for your stamina as we get 
toward the end of today's hearing.
    You know, in Indiana, opioids are wrecking communities and 
breaking hearts all across our State. President Trump was right 
to call this a public health emergency. And despite the hard 
work of our police, first responders, public health officials, 
and our schools, leadership all across these communities, the 
epidemic seems to have only gotten worse. I think we all can 
agree today that more needs to be done.
    In Indiana, drug overdose fatalities have increased by more 
than 500 percent since 1999. And estimates of the total annual 
cost of overdoses exceeds $1 billion just in my home State of 
Indiana alone. This crisis is crippling generations of Hoosiers 
and ripping apart their families and their communities.
    In Indiana, I applaud recent steps by our Governor, Eric 
Holcomb, who in partnership with the Hoosier healthcare 
providers are working to tackle this public health crisis. 
Their approach is designed to decrease opioid deaths, increase 
awareness, and decrease the number of babies born with neonatal 
abstinence syndrome by devoting $50 million over the next 5 
years to this problem in our State.
    A couple of quick questions. First, I wanted to start just 
with Dr. Cox. You gave testimony about some of the efforts in 
and around your school. How do you train teachers to counsel 
students who are coping with addiction themselves or who may 
have a family member dealing with the disease?
    Dr. Cox. Well, it is difficult. You know, I think part of 
it is developing initial understanding of what it is because 
there is so much misunderstanding about addiction. And so that 
is what we have tried to do. And we don't have enough time 
resource for professional development. That is an issue as 
well. So it is not just the money issue in terms of the 
professional development experience. But to answer your 
question, you know, we need to help our teachers understand 
what addiction is before they begin to help students and then 
refer them to counselors.
    Mr. Messer. And do you have family based programs, trying 
to get parents more engaged as well?
    Dr. Cox. We do. Again, our sheriff has done a really 
remarkable job in the community holding town hall meetings 
across the whole county. In fact, there is one this evening. 
And they have been well attended.
    Mr. Messer. Dr. Wen, I was hoping to just get any further 
recommendations. I mentioned in my introduction Indiana is 
working on a program to tackle these challenges. And I wonder 
if you had any further recommendations as we get to the end of 
this hearing for States who are looking to implement programs 
to prevent deaths and increase awareness?
    Dr. Wen. The first thing that we have to do is get 
naloxone, the antidote, into the hands of every single 
individual, not only first responders, but we should all be 
able to carry it in our medicine cabinet, in our first aid kit, 
in our schools, in our libraries, similar to how we have 
defibrillators available at all these public places. But we 
also have to have funding so that we can get this lifesaving 
medication into the hands of everyone.
    The second is we need to have treatment for people at the 
time that they need, all types of treatment that are evidence-
based, which includes medication-assisted treatment that has 
been shown to reduce illness and prevent overdose deaths.
    And the third is we critically have to fight stigma and 
encourage people to seek treatment. That also includes the 
prevention that we all talked about.
    We were speaking about schools and what we can do at our 
schools. The Just Say No and programs such as that are not 
going to be enough. The education for teachers will not be 
enough unless we also promote wellbeing overall, so that we 
provide children and families the support that they need in 
terms of food and housing and other critical services.
    Mr. Messer. I do have to say to that, quickly, that I grew 
up in 1980s. I am a child of the 1980s and I remember the Just 
Say No program. Frankly, I think it mattered. I mean, the 1980s 
were a time when it wasn't cool to do drugs. Before that it was 
cool to do drugs, After that, you know, some said it was cool 
to do drugs. It wasn't cool then and I think it is part of the 
answer, not the only answer. And I appreciate the rest of the 
your testimony.
    In the little limited time I have left, Mr. Robinson, I 
would just ask you to maybe comment a little further on the 
economic crisis that is being created by this opioid epidemic 
as well. I have talked to so many employers in my home State 
who are saying they are having a hard time finding the 
workforce they need because drugs is epidemic in their 
community.
    Mr. Robinson. It is happening everywhere. And as I 
mentioned in my comments, our State chamber CEO says the number 
one economic concern in our State--and our State is moving 
forward with economic development, but one of the big concerns 
is are we going to, as jobs come, as companies expand, are we 
going to be able to provide enough employees that can pass drug 
screens? And that is why I think one of the places that we need 
to look for workforce is people that are in addiction today. If 
we can treat them, then put them through vocational 
rehabilitation, and then get them a work ready program to put 
them back to work, then we can provide those employees that 
have been treated to those employers and meet this need.
    Mr. Messer. Yes. Thanks again. Thanks for your testimony. 
And thank you all for being here.
    Chairman Rokita. Thank you, gentlemen. The gentleman's time 
has expired.
    Mr. Barletta, the gentleman from Pennsylvania, is 
recognized for 5 minutes.
    Mr. Barletta. Thank you. Mr. Robinson, you hit on exactly 
what I am going to talk about right now. Whenever I sit down 
with Pennsylvania business owners they tell me that a major 
roadblock in job growth in recent years has been directly 
connected to the opioid crisis. These employers have good 
paying jobs that they desperately need to fill, but they can't 
find people who can pass a drug test for hiring.
    Now, Pennsylvania is not alone in this crisis. Economist 
Alan Krueger identified national labor force participation for 
men aged 24-54 has fallen more in counties across America where 
more opioid pain medicine is prescribed. Chair of the Federal 
Reserve, Janet Yellen, has also acknowledged the opioid 
epidemic's tragic and devastating effects on the workforce. 
Now, clearly there needs to be a plan of action to treat these 
folks so that they could work again.
    Mr. Robinson, in your testimony you shared how the CEO of 
the Kentucky Chamber of Commerce identified addiction as 
Kentucky's number one economic concern. What kind of 
partnerships has the Addiction Recovery Center formed with 
Kentucky workforce development boards to connect individuals 
who can pass a drug test with employers? And do you have any 
suggestions for how business owners in Pennsylvania and across 
the country can find qualified individuals to fill their open 
positions?
    Mr. Robinson. I think our workforce development boards need 
to be as involved in this opioid issue as the healthcare side 
of this because treatment is essential. We can't get somebody 
back to work without treating them, but we also have to be able 
to give them an economic opportunity. And so I think the 
workforce boards is the logical place for us to put funding 
that allows them to work not only with treatment providers like 
us and those that are doing workforce programs, but also to 
work with those employers and to help us in this change in the 
culture because there are a lot of employers that have zero 
tolerance programs. Those zero tolerance programs are not going 
to work in the current reality moving forward.
    And so we need to get those employers to start hiring some 
recovering addicts because then they will see what I have seen. 
A third of my workforce is recovering addicts and they are my 
best employees.
    And so by getting those employers engaged--and we get them 
to the table by saying, look, if you will give second chances, 
we will help you with the programs, the workforce programs, 
that you need to provide you with welders and truck drivers and 
some of these high-demand fields, healthcare, that they are 
suffering to fill those jobs.
    Mr. Barletta. Yes, and I agree. And I think the first step 
is getting help for people. So the public and employers and our 
country as a Nation understand that it is a disease and an 
illness. These are not people who are losers and decide they 
want to wreck their lives with drugs. This is an illness, and 
as a country we need to understand that. Get people help, 
treatment, and then give them another shot at life.
    Mr. Robinson. And we found as we have had people come into 
treatment, stick around and do our workforce program, it is not 
1 in 5 or 1 in 10. There is a significant number of people 
coming into our residential centers. If given a career path at 
the time of treatment and knowing that they are going to be 
able to make a living on the other side of it, it increases 
treatment motivation. And those become some of the most 
successful people that we have in our communities.
    Mr. Barletta. Well, the worst thing we can do as a Nation 
is help people and get them treatment and then slam a door in 
their face after they have gone through that when they are 
looking for another chance.
    Thank you.
    Mr. Robinson. Absolutely.
    Chairman Rokita. I thank the gentleman. The gentleman 
yields back.
    I would like to again thank our witnesses for taking the 
time to be here with our subcommittees today.
    I recognize Mr. Polis for closing remarks.
    Mr. Polis. I want to thank our witnesses for being here 
today and your compelling testimony, which will also appear in 
the official congressional record for the benefit of members 
who don't serve on this committee and members who were unable 
to attend. Each of you shared stories and data about your work 
and about the individuals that are impacted by the opioid 
crisis.
    In my own community, like for so many of us, the opioid 
crisis has become very personal. For instance, my constituent 
Carlos Santos. When Carlos was in high school he was severely 
injured while playing in Summit County High School's homecoming 
football game. During his recovery process, he was prescribed 
habit-forming pain medications that later became an addiction. 
For years Carlos kept finding the pills to continue his habit 
until his entire life and health revolved around his addiction. 
It took a serious drunk driving accident to finally give Carlos 
a wake-up call that he needed to change his life. Now, years 
later, Carlos has successfully battled his addiction. But we 
all know that many others aren't as lucky and many pay the 
ultimate price.
    As policymakers it is important to hear and share these 
stories, but we also have a responsibility to take these words 
and turn them into action. Throughout this hearing we have 
heard about how critical funding programs are for tackling this 
national crisis. To truly defeat this epidemic we need to fully 
fund programs that include the educational programs we have 
authorized in ESSA that we have talked about today, mental 
health and treatment programs; research to study pain 
management alternatives like cannabis and others; and, of 
course, fully fund and support Medicaid, which, of course, 
provides funding to organizations like Mr. Robinson's.
    I look forward to continuing to work with my Democratic and 
Republican colleagues towards the goal of ending the scourge of 
opioid and substance abuse across the country.
    And I yield back the balance of my time.
    Chairman Rokita. I thank the gentleman. Let me also add my 
comments and close out this hearing. Again, thank each of you 
for your leadership, your courage for coming here today and 
helping not only these subcommittees and this committee as a 
whole and this Congress learn more about this crisis, this 
emergency, but your help to the entire Nation. You are, as has 
been said in this hearing, on the front lines. And funding and 
all that surely will continue to be discussed and debated.
    But one thing is for sure that I learned in this hearing, 
is that you are the solutions, we are the solutions as a 
community. That one-size-fits-all approach certainly won't be 
helpful to this coming from Washington alone. So thank you 
again for your leadership.
    Thank you for sharing your experiences with us. As my 
colleague, who sat in the chair here for a while, Mr. Brat, 
mentioned one of the bills we have been working to update--and 
apologies we did not speak more about it in terms of how it 
could help--is the Juvenile Justice and Delinquency Prevention 
Act. Your testimony today highlights the need for reforms that 
encourage community collaboration and engagement. And we have 
done this in H.R. 1809. So this is just one example of how 
Congress can be supportive, as the gentleman mentions, to 
communities in responding to unique local needs.
    Again, your testimony has been invaluable as we learn more 
about how communities are coming together at the local level to 
address this epidemic, and it informs our discussions as we 
consider the next steps, including any legislation to help you 
do your jobs better, be the leaders that you are.
    So thank you again for everything that each of you do and 
all the people that you represent who are doing very similar 
work.
    Hearing no other business before us----
    Mr. Polis. Mr. Chairman, I do have a unanimous consent 
request. I ask unanimous consent to insert in the record a 
letter discussing the importance of the Medicaid expansion 
signed by numerous health and education organizations.
    Chairman Rokita. I thank the gentleman. Without objection, 
so admitted.
    And having no other business before the committee we are 
adjourned for the day. Thank you very much.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 12:47 p.m., the Subcommittees were 
adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
